<html>
<title> - OVERSIGHT OF MEXICAN COUNTERNARCOTICS EFFORTS: ARE WE GETTING FULL COOPERATION?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  OVERSIGHT OF MEXICAN COUNTERNARCOTICS EFFORTS: ARE WE GETTING FULL 
                              COOPERATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 1999

                               __________

                           Serial No. 106-85

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
62-622 CC                    WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 1999...................................     1
Statement of:
    Bowman, Chief Theron, chief of police, Arlington, TX; and 
      Sheriff Ted G. Kamatchus, Marshall County, IA..............    29
    Weitzman, Jeff, Canine Enforcement Officer, U.S. Customs 
      Service, Orlando Field Division; and William F. Gately, 
      former Agent, U.S. Customs Service.........................    48
Letters, statements, et cetera, submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, letter dated March 22, 1999.........    74
    Gately, William F., former Agent, U.S. Customs Service, 
      prepared statement of......................................    57
    Kamatchus, Sheriff Ted G., Marshall County, IA, prepared 
      statement of...............................................    37
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii:
        Article dated March 16, 1999.............................    19
        Letter dated March 23, 1999..............................    10
        Prepared statement of....................................    12
        Proposal to decertify Mexico's drug status...............     7
    Weitzman, Jeff, Canine Enforcement Officer, U.S. Customs 
      Service, Orlando Field Division, prepared statement of.....    50


  OVERSIGHT OF MEXICAN COUNTERNARCOTICS EFFORTS: ARE WE GETTING FULL 
                              COOPERATION?

                              ----------                              


                       WEDNESDAY, MARCH 24, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee pet, pursuant to notice at 1:35 p.m., in 
room 2203, Rayburn House Office Building, Hon. John Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Gilman, Souder, 
Hutchinson, Ose, Mink, Cummings, and Kucinich.
    Staff present: Robert B. Charles, staff director/chief 
counsel; Gil Macklin, professional staff member; Amy Davenport, 
clerk; Michael Yeager, minority counsel; and Jean Gosa, 
minority staff assistant.
    Mr. Mica. Good afternoon. I'd like to call this meeting of 
the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. Today, we are conducting a hearing 
entitled, ``Oversight of Mexican Counternarcotics Efforts: Are 
We Getting Full Cooperation?''
    I would like to start today's proceedings with an opening 
statement followed by our ranking member, and we will be joined 
by other Members as they return from votes on the floor.
    As I have stated many times, I believe that we cannot 
tackle the problems of drug abuse and the concurrent social 
problems of crime and significant cost to our country without 
an approach that addresses, simultaneously, education, 
treatment, prevention, enforcement, interdiction, and 
eradication.
    I believe this must be a comprehensive effort. That is why 
this subcommittee has conducted five hearings on drug policy 
this year, and today we will be conducting our sixth.
    Combating illegal narcotics production and trafficking is 
an absolutely critical element in reducing the supply of drugs. 
With 60 to 70 percent of the hard drugs entering the United 
States coming from Mexico, it is vital that the Congress 
examine the question of Mexico's drug certification.
    Today's hearing will serve as an analysis of what Mexico is 
doing to combat that illegal drug trafficking. We have four 
witnesses who currently serve, or who have served, on the front 
line in the war on drugs.
    Despite a long and productive relationship with our close 
ally to the south, drugs coming from Mexico are ending up on 
American streets. Mexican trafficking organizations continue to 
be a major source for cocaine entering the United States. 
Additionally, according to DEA's Heroin Signature Program, 
Mexico has now become a major producer of high-purity heroin. 
Mexico is now the source of 14 percent of all heroin seized in 
the United States. Alarmingly, Mexico continues to serve as a 
major source of foreign methamphetamine, as well as the major 
source of foreign marijuana entering the United States.
    An article last September in the Minneapolis Star Tribune 
stated that about 85 percent of the methamphetamine in 
Minnesota is smuggled from Mexico. As we will hear today, the 
Mexican methamphetamine is ravishing communities in our 
Midwest, and we will hear an example of Iowa here today.
    Drugs coming from Mexico undermine our communities, spread 
violence, and finance gang violence. In fact, it is destroying 
young lives at a record level in the United States.
    The statistics on drug use, particularly among our young 
people, continue to be worrisome and sobering to every American 
and every Member of Congress. Drug use is highest among our 
12th graders, with more than 50 percent of them having tried an 
illicit drug, and more than one in four labelled as current 
users.
    Today our subcommittee will examine Mexico's progress in 
the fight against illegal drugs. Without question, no country 
in the world poses a more immediate drug threat to the United 
States than does Mexico.
    Despite some of the reports that progress has been made 
against drug trafficking, Mexico still has not complied with 
several requests made by the Congress less than 2 years ago. 
Mexico still has not signed a bilateral maritime agreement, and 
corruption remains a major impediment. Additionally, our U.S. 
law enforcement agents are not allowed to adequately protect or 
defend themselves. The Government of Mexico still has failed to 
extradite a single major drug trafficker.
    Today, what is of great concern to me, is that Mexico has 
lost vast areas, entire states and regions, to the control of 
narco-traffickers. And from our reports, this has taken place 
in both the Baja and Yucatan peninsulas as well as other areas 
in Mexico. We have reports that these areas are now under 
complete control of narco-traffickers. If this trend continues, 
Mexico could be on the verge of turning over their sovereignty 
to drug traffickers.
    Based on facts and information we have learned so far--both 
in open and closed hearings, meetings and briefings--it is 
difficult for me to believe that this administration would 
certify Mexico as fully cooperating. This action is most 
troubling. Some of the statistics that we have learned from 
1998, last year, are even more troubling. Boat seizures were 
down 29 percent from 1997. Opium/heroin seizures were down 56 
percent. Cocaine seizures were down 35 percent.
    We have attempted to be fair and balanced in investigating 
Mexico's progress. However, what we have found should concern 
every Member of Congress. That is why today I am sponsoring, 
along with the chairman of the House International Relations 
Committee, Mr. Gilman, a resolution that proposes decertifying 
Mexico with a national interest waiver. It is my belief that, 
despite the fact that the 30-day provision of the Foreign 
Assistance Act will technically run its course this week, we 
need to continue considering and examining Mexico's lack of 
progress and consider possible decertification.
    This provision is intended to extend the 30-day window of 
review so that this Congress may continue its deliberation and 
consideration of this very vital national security issue. The 
drug issue should not be limited to 30 days of attention every 
year. It must remain at the top of our agenda. We owe at least 
this much to the American people.
    These are some of the issues that remain at the top of our 
agenda, and today we hope to obtain a better understanding of 
the disastrous situation that we face with these drugs coming 
in from Mexico from the witnesses who will testify before our 
subcommittee.
    That concludes my opening comments, and I am pleased now to 
yield at this time to our ranking member, the gentlelady from 
Hawaii, Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED]62622.001
    
    [GRAPHIC] [TIFF OMITTED]62622.002
    
    Mrs. Mink. I thank you, Mr. Chairman, for offering the 
Congress and this subcommittee, in particular, an opportunity 
to hear the other side of the picture, having to do with the 
law enforcement activities within the United States.
    I believe that this search for information, with respect to 
our law enforcement efforts and the testimony of corruption and 
deception and coverup that I understand is also going to be in 
the testimony today, is a very important part of our full 
understanding of the crisis which this country is facing.
    I regret the actions that you and Mr. Gilman have taken 
today, evidently--I just received your notice--that you are 
filing a resolution calling for the extension of the period 
which is contained in the statute limiting the issue of 
decertification to 30 days from the date of notice by the 
President.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]62622.003
    
    [GRAPHIC] [TIFF OMITTED]62622.004
    
    Mrs. Mink. I feel that the whole issue of drug policy, and 
the scourge that it has become over the years within this 
country, is a responsibility that all nations have to deal 
with. It is properly addressed by this subcommittee and by the 
full committee. I hope to be able to continue cooperating with 
you, Mr. Chairman, on that very course, because I do think it 
is an important area for our consideration. And I welcome the 
opportunity to hear from the witnesses today.
    I apologize, Mr. Chairman, as I may have to leave to 
testify before the Rules Committee when my turn is called.
    In that connection, I ask unanimous consent that a letter 
from the Justice Department, from Dennis K. Burke, Acting 
Assistant Attorney General, be placed into the record at this 
point. It is merely calling to our attention the fact that some 
of the matters relating to Operation Casablanca is in a trial 
status with it commencing before the U.S. District Court in the 
Central District of California on Monday, March 29. And they 
are asking us to exercise caution and discretion in the 
testimony and comments and questions that we might ask, with 
reference to that investigation.
    Mr. Mica. Without objection, that will be made part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]62622.005
    
    Mrs. Mink. The second matter that I would like to have 
placed into the record at this point relates, again, to 
Operation Casablanca. And it is from the Commissioner of 
Customs, Raymond W. Kelly, a letter dated March 23, addressed 
to you, the Honorable John Mica, chairman of this subcommittee, 
and goes to the matter of the March 16, 1999, New York Times 
article, which he wishes to have clarified.
    Thank you.
    Mr. Mica. Without objection, that will also be made part--
--
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica [continuing]. Of the record.
    [The prepared statement of Hon. Patsy T. Mink and the 
information referred to follows:]
[GRAPHIC] [TIFF OMITTED]62622.006

[GRAPHIC] [TIFF OMITTED]62622.007

[GRAPHIC] [TIFF OMITTED]62622.008

[GRAPHIC] [TIFF OMITTED]62622.009

[GRAPHIC] [TIFF OMITTED]62622.010

[GRAPHIC] [TIFF OMITTED]62622.011

    Mr. Mica. I thank the gentlelady.
    Mr. Souder. Mr. Chairman.
    Mr. Mica. Yes?
    Mr. Souder. A parliamentary question--I just read Mr. 
Kelly's letter. It seems that the New York Times article ought 
to be inserted because it doesn't really make sense unless----
    Mrs. Mink. Yes, with that addition----
    Mr. Mica. Without----
    Mrs. Mink. I ask unanimous consent that the New York Times' 
article also be placed into the record.
    Mr. Mica [continuing]. The New York Times' article by Mr. 
Golden will also be made part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]62622.012
    
    [GRAPHIC] [TIFF OMITTED]62622.013
    
    [GRAPHIC] [TIFF OMITTED]62622.014
    
    [GRAPHIC] [TIFF OMITTED]62622.015
    
    [GRAPHIC] [TIFF OMITTED]62622.016
    
    [GRAPHIC] [TIFF OMITTED]62622.017
    
    [GRAPHIC] [TIFF OMITTED]62622.018
    
    [GRAPHIC] [TIFF OMITTED]62622.019
    
    Mr. Mica. Thank you, and we understand you will be back and 
forth--we appreciate it.
    I would like to now recognize the Chair of the 
International Relations Committee for an opening statement, the 
gentleman from New York, Mr. Gilman.
    Mr. Gilman. I thank the chairman for yielding, and I want 
to compliment Chairman Mica and our colleagues on this 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources for your important interest, sustained interest, in 
this vital issue of Mexico's cooperation and our common fight 
against illicit drugs.
    Today's hearing to discuss Mexico's role in fighting drugs, 
hopefully, will help us establish a record of performance that 
few objective observers would call ``full cooperation,'' as 
President Clinton certified on February 26.
    Mr. Chairman, let there be no mistake; the annual drug 
certification issue is still important. Earlier this week, as 
you know, I joined with you, Mr. Chairman, as a chief co-
sponsor, introducing a resolution of disapproval of Mexico's 
certification as ``fully cooperating.'' Our Committee on 
International Relations will take a careful and considerable 
examination on how we should next proceed, with regard to that 
resolution.
    The Mica-Gilman resolution, which has a waiver of sanctions 
built in, will also extend the 30 calendar days we normally 
have to act from the date of certification by the President. 
The resolution's text states that, ``for construction purposes, 
it shall be considered and acted within 30 days of the actual 
certification of Mexico on February 26, 1999.'' Congress still 
has time to consider disapproval, and we ought to give it very 
serious consideration.
    My concerns with Mexico's performance in our fight against 
drugs are numerous. The record this committee and the 
International Relations Committee have established over the 
last several weeks earn Mexico a failing grade.
    For example, no major drug pins have been extradited to the 
United States. Seizures are down; the flow of cocaine, black 
tar heroin, marijuana, and methamphetamine into the United 
States continues unabated. The DEA, unlike elsewhere in the 
world where nations are fully cooperating with our fight 
against drugs, still has not been given diplomatic immunity to 
carry weapons. They must be able to protect themselves in this 
dangerous and hostile environment, where the drug dealers are 
often better armed and more powerful than the Government. And 
in some instances, the police are openly protecting the drug 
dealers. The corruption and penetration, by the cartels, of 
elite Mexican anti-drug units we established together, has put 
us back to square one in our common fight.
    Three of our former Presidents have identified drugs as a 
major national security issue facing the United States.
    Today, most of those illicit drugs are entering our Nation 
through our border with Mexico. We need the cooperation of our 
neighbor to the south in this common struggle that threatens 
everyone's national security.
    So, again, I thank you, Mr. Chairman, and I thank this 
committee for its leadership and willingness to call it like it 
is, without fear or favor. And I look forward to working with 
you in this effort.
    Mr. Mica. I thank the gentleman from New York.
    I am pleased to recognize Mr. Souder, from Indiana.
    Mr. Souder. I have no opening----
    Mr. Mica. I am pleased then to recognize Mr. Ose, from 
California.
    Mr. Ose. Thank you, Mr. Chairman. I, too, am grateful for 
the privilege of being here.
    I want to harken back to our trip to South America. If I 
could find one instance where the individuals that we have been 
able to identify, and that have also been identified by our 
neighbor to the south--if I could find an instance where the 
heads of the cartels, such as those individuals, were to be 
extradited to the United States, in response to our requests, 
based on the evidence we have developed--if a single instance 
of that could be shown to me, I would be far more receptive to 
the idea of not going forward with this.
    However, I know of five such individuals, as we learned on 
our trip--they are listed in here somewhere--that we have 
requested extradition on, that we have virtually irrefutable 
evidence that they are involved in trafficking, and for which 
we have had no positive response for our requests.
    If this is the only way to get attention to this matter, I 
am willing to do it.
    I don't have anything further to add.
    Mr. Mica. I thank the gentleman.
    If there are no further opening statements at this time, I 
am pleased to welcome our first panel of witnesses. We have two 
witnesses; one is Chief Theron Bowman, who is chief of police, 
from Arlington, TX. The other is Sheriff Ted G. Kamatchus--
Kamatchus?
    Mr. Kamatchus. ``Kamatchus.''
    Mr. Mica. ``Kamatchus.''
    Mr. Kamatchus. Yes, sir.
    Mr. Mica. And he is sheriff of Marshall County, IA.
    Part of the purpose of this panel is to examine the impact 
of drugs coming out of Mexico into our communities. There are 
representatives from two areas--the Midwest and the South--here 
to provide us with their background and information.
    Gentlemen, this is an investigations and oversight 
subcommittee of Congress. And, in that light, we do swear in 
our witnesses. So if you wouldn't mind, please stand to be 
sworn?
    [Witnesses sworn.]
    Mr. Mica. The witnesses, the record will reflect, answered 
in the affirmative.
    Since we only have two of you, we won't be as tight with 
the timing, but normally we try to limit the time of oral 
testimony to 5 minutes. If you have lengthy statements or 
additional material you think would be pertinent to the record, 
it will be, upon request, entered as part of the record of this 
hearing.
    With that, I am pleased to welcome you both, and I would 
like to first recognize Chief Bowman, chief of police, from 
Arlington, TX. You are welcomed, sir, and recognized.

STATEMENTS OF CHIEF THERON BOWMAN, CHIEF OF POLICE, ARLINGTON, 
     TX; AND SHERIFF TED G. KAMATCHUS, MARSHALL COUNTY, IA

    Chief Bowman. Thank you, Mr. Chairman, and the committee. I 
appreciate this opportunity to come before you and testify.
    First of all, my name is Theron Bowman. I am the chief of 
police in the city of Arlington, TX. Arlington, TX, population 
approximately 300,000, lies in the heart of north-central 
Texas, equidistant from Dallas and Forth Worth. The Dallas/Fort 
Worth metropolitan statistical area consists of 16 counties and 
has a population of over 4\1/2\ million people. The area is 
serviced by four major interstate highways. It is home to the 
Dallas/Fort Worth International Airport and several local and 
regional airports. In 1997, DFW Airport serviced 60 million 
passengers. It recently became the world's busiest airport in 
total aircraft operations.
    Now, a well-developed infrastructure of commercial 
enterprise, transportation networks, and international finance 
attracts illicit activities into the north Texas area. 
International air and highway corridors facilitate the 
distribution of narcotics into the region where they are 
distributed or shipped to other points in the East, the 
Midwest, or the Northeast United States.
    Analysis of the U.S. drug seizure data indicates that 
metham-phetamines, cocaine, marijuana, and heroin trafficking 
into north Texas is on the increase. A large quantity of these 
drugs are secreted in vehicle compartments and are smuggled 
across the Mexican border from Laredo along I-35 or through 
Houston along Interstate 45. According to the North Texas High-
Intensity Drug Trafficking Area Task Force, 40 Mexican drug 
trafficking organizations constitute the major source of drug 
trafficking into north Texas.
    Heroin use in our area is an emerging threat throughout 
north Texas, as demonstrated by a rash of recent, well-
publicized heroin overdoses in Plano, TX. Now, Plano is a 
Dallas suburb. It ranks as the fifth fastest-growing city among 
cities with populations of at least 100,000 people. During the 
past 5 years, since 1994, 17 heroin-related deaths have been 
reported in Plano; 13 of those deaths have occurred since 
January 1, 1997, and all of those are--the juvenile deaths 
are--the victims are a part of the juvenile population, the 
deaths are believed to be the result of heroin's recent high-
purity level, which DEA lab tests revealed to be as high as 76 
percent; traditional purity levels, on the other hand, are 
between 1 and 6 percent.
    So north Texas serves as a critical transshipment point for 
heroin traffickers especially. Recent investigations reveal 
that traffickers use north Texas as a primary distribution 
point for Oklahoma, northwestern Louisiana, and southwestern 
Arkansas. Dallas, for instance, was the point of origin for two 
recent large narcotics seizures.
    In August 1997, a Nashville, TN police department seized 16 
kilograms of 96 percent pure Colombian heroin en route to New 
York from Dallas. In June 1998, 17 kilograms of 92 to 94 
percent pure heroin were seized at DFW Airport. Intelligence 
identified a combination Colombian and Mexican smuggling 
organization as moving heroin via commercial aircraft from 
Bogota, Colombia, to Reynosa, Mexico, and then across the 
Mexican/United States border to McAllen, TX. The heroin was 
then moved from McAllen to New York City via DFW Airport.
    On June 13, 1998, an individual was arrested with 5\1/2\ 
pounds of Mexican black tar heroin on a Greyhound bus en route 
to Dallas from the Rio Grande Valley, and then in July 1998, 9 
pounds of white heroin were found by a Memphis, TN, task force 
officer in a suitcase on a Greyhound bus that originated in 
Dallas.
    These and other significant seizures suggest that north 
Texas has become a strategic point for the movement of heroin, 
as well as a national distribution center.
    Now local law enforcement agencies in north Texas--and I 
believe around the country--are losing the battle against 
illegal drug trafficking. The Greater Dallas Council on Alcohol 
and Drug Abuse last year had a 300-percent increase in reported 
heroin addiction at their central intake system. The percentage 
of youth seeking substance abuse treatment who cite heroin as 
their drug of choice has increased 650 percent during the past 
3 years. After a consistent 10-year decrease in youth substance 
abuse, there is a disturbing 3-year trend now in increased use 
of illegal drugs by adolescents. Drug and alcohol problems are 
either primary or contributing factors in over 70 percent of 
900 individuals served each month through the psychiatric 
emergency room at Parkland Hospital in Dallas, TX. So for 1996 
to 1997, in Dallas County, 63 percent of all males arrested for 
any crime, and 55 percent of all females arrested for any 
crime, tested positive for at least one drug in their system.
    Metropolitan areas today are marginally impacting demand 
through multi-agency narcotics task forces, but I believe that 
there must be a sustained and focused effort on supply, or on 
eradicating the supply, of drugs for local law enforcement 
agencies to have any real effect on the drug problem.
    Now, during my 16-year tenure as a law enforcement officer, 
I spent part of that time working as a narcotics officer. And 
as a narcotics officer, I had the opportunity to meet Glen.
    Glen, when I met him, was married, had a job, a family, and 
cared for his elderly mother. He also was one of the heroin 
addicts that I met and made cases on. When I met Glen, he was 
dealing Mexican brown heroin and marijuana. But within 2 weeks 
of the time that I met him, he had started using $20-daily 
quantities of heroin. A week later, the cost of this heroin 
habit had increased to $100 a day. Glen subsequently lost his 
job; he lost his family. He burglarized his mother's house; he 
stole from his wife, and within 3 months, Glen was burglarizing 
an estimated 10 houses per night, plus committing 3 to 5 
robberies per week, just to support his $750 per day heroin 
addiction. We looked for Glen; he had dropped out of sight. He 
spent every waking moment he could supporting his heroin 
addiction.
    But Glen was lucky because we finally found him. We caught 
up with him; we arrested him and placed him in jail. He did not 
lose his life, but too often now we see in our neighborhoods 
and communities kids who are not so lucky.
    Kids are dying from overdosing, and primarily on heroin. 
Such is the case with 20-year-old Todd, who injected at the 
Dallas home of his older brother. Todd was transported to a 
Dallas hospital and later pronounced dead.
    After a night of drinking, popping pills, taking heroin and 
cocaine, 13-year-old Derrick was found unconscious in his 
bedroom. He was later pronounced dead at an area hospital from 
an overdose of heroin.
    Twenty-one-year-old Aaron was found in his apartment by his 
18-year-old girlfriend and later pronounced dead at a hospital. 
A plastic bag containing about 3 grams of a black substance was 
found in the apartment. And Aaron had a baby son.
    Eighteen-year-old Stephanie was found lying on her back on 
the couch in the living room in her home. A neighbor 
unsuccessfully attempted to resuscitate her. She was pronounced 
dead at the scene by the medical examiner. And she had had 
problems with drugs throughout her life.
    So the flow of illegal drugs, primarily through Mexico, 
from the Mexican border into United States households, has cut 
a giant swath right through north Texas, from working-class 
neighborhoods to wealthy suburbs. In the words of the Fort 
Worth Star Telegram, ``more and more young users, still 
dangerously naive about the heroin drug, find it cheap, 
plentiful, and powerfully addictive.'' Most law enforcement 
officials would agree that narcotics abuse has reached an 
epidemic level.
    So the ongoing competition in north Texas between Mexican 
and Colombian traffickers for the heroin market creates an 
ideal climate for narcotics trafficking. This competitive 
environment has increased supply, has raised purity levels, and 
lowered prices for black tar heroin and other kinds of drugs in 
north Texas and most of the other United States.
    Thank you, Mr. Chairman.
    Mr. Mica. Chief Bowman, we thank you for your testimony.
    I am pleased now to recognize Sheriff Kamatchus--Kamatchus?
    Mr. Kamatchus. Kamatchus.
    Mr. Mica. We have heard a little bit about what is going on 
close to the Mexican/United States border and the northern part 
of Texas. And we would like to hear your perspective coming 
from the heart of America, Marshall County, IA.
    Mr. Kamatchus. Thank you, Mr. Chairman, members of the 
committee. I am very honored to have an opportunity to come 
before you today.
    My name is Ted Kamatchus; I am the sheriff of Marshall 
County, IA. It is a county of a little over 40,000 people. It 
is in the center of the State of Iowa, center of the 
``heartland of America,'' ``breadbasket of America,'' if you 
will. It is a small, rural community of about 23,000 to 25,000 
people. It is diverse; we have industry, we have agriculture, 
and frankly, over the last 5 to 6 years, we have found that we 
have methamphetamine trafficking at a very high level.
    Today, I want to have a chance to talk to you about the 
problem as we see it, the growth that we have seen, and to 
leave here with a better understanding that the Federal 
Government is going to do something to deal with the problem.
    I have had the opportunity in my 22-plus years in law 
enforcement to work the streets, to work undercover, kick 
doors, to do a lot of the grunt work that we take for granted 
sometimes in law enforcement. I have had a chance to lay in a 
ditch and watch a meth lab on Christmas Eve. I have had a 
chance to see people deteriorate.
    You see, a sheriff in a rural part of a country, we are 
very much involved in our community. We are elected by the 
people; we serve the people, directly. Every day we see them, 
whether it is on the street or in the coffee shops. We see 
their kids. And I have had, time and time again in the last 5 
years, a chance to see individuals that have become addicted to 
this methamphetamine and see them deteriorate, wilt away and, 
quite frankly, become a detriment to our society, feeding off 
of our society.
    In the 1980's, we saw cocaine become kind of the drug of 
choice in Iowa. All the way through the 1960's, 1970's, and 
1980's there has been marijuana. In the 1990's, heroin has 
begun to pop up, but it was hard to really get. Marijuana still 
was there. And I remember working hand in hand with the State 
and the National Guard in the marijuana eradication programs 
that were very, very popular then. It was at that time, that we 
began the Mid-Iowa Drug Task Force in our area; it is a four-
county drug task force. It was funded by BYRNE, as it is 
today--a very important program.
    In the last 5 years, however, it has gone from marijuana to 
methamphetamine as the drug of choice. It has gone so much 
that, in the last year in our county--the small county it may 
be--of the 2,500 inmates that were booked into our jail 
facility, 92 percent of those had substance abuse problems. And 
of that 92 percent, approximately 80 percent were directly tied 
to methamphetamine.
    I want to tell you about a problem that 5 years ago our 
Mid-Iowa Drug Task Force seized a total of 3 ounces of 
methamphetamine. Last year, we seized over 60 pounds--a 
substantial increase. We began seeing this increase. We began 
wondering, ``Where in the world is it coming from? What is 
going on with it?'' We began to gather intelligence and work 
with the State and Federal authorities. And what we found out 
was, quite frankly, sickening.
    We have had an influx of a Hispanic community of about 
5,000 to 7,000 people into our area. These people are directly 
related to working in the fields and to a packing plant which 
is our largest employer in Marshalltown. The overwhelming 
majority of this group are hardworking individuals that have 
come across the border or come from the southern part of the 
country to have a chance at building a good life for themselves 
and their families. My parents are immigrants--my mother from 
Germany, my father from Greece--and I respect the fact that 
somebody wants to come here to make a good life for themselves.
    But along with that group, came the prowl on 
methamphetamine, not from the group as a whole, but from an 
infiltration of individuals who have been actually filtered in 
randomly amongst that group. And, frankly, as many of you 
probably are very well aware of, it is very difficult to tell 
the players without a program. We didn't have very many 
Spanish-speaking people in our community, much less our law 
enforcement agencies. Our jails--we would get people in and it 
was very, very difficult. It has been a hurdle that we are 
still attempting to overcome.
    But what we began to understand was that these individuals 
that were infiltrating this mass hiatus of individuals that 
have come into our community, actually were individuals who 
were financed from south of the border. They were people who 
were deliberately put into our area.
    Marshalltown is in the center of the State of Iowa. It is 
25 miles east of Highway 35--Interstate 35. It is 25 miles 
north of Interstate 80. It is in the middle of the country. It 
is almost directly equal between Des Moines and that area of 
about 350,000 people, Waterloo/Cedar Falls, with a population 
of about 140,000, and slightly more than 60 miles from the 
Cedar Rapids/Iowa City area. It puts us very, very centrally 
located, not just in our State, but in the country.
    And what we began seeing, through our intelligence 
gathering, from the Mid-Iowa Drug Task Force, and through our 
increased efforts in working with the State and Federal 
Government, was that this infiltration that was beginning to 
occur was coming not just from within Iowa, not just from the 
southwestern part of the country or from Texas, but actually 
from south of the border.
    About a year and a half ago now--about 15 months I guess it 
has been actually--I was approached by a gentleman by the name 
of Dan McGraw, from U.S. News and World Report. He came to 
interview me about the methamphetamine trouble that we have in 
Marshalltown, IA, and in Iowa, in general. I was a little 
baffled about why he would come to Marshalltown to talk to me. 
I am on the Board of Directors of the National Sheriff's 
Association, and I serve very proudly representing them--the 
over 3,000 sheriffs in this country. I didn't know if it was 
driven by that or if there really was a problem. Obviously, we 
had seen a problem, but we weren't sure that it was any 
different than it was elsewhere in the country.
    What he told me was a story that has been confirmed by the 
Administrator of the DEA, Thomas Constantine, when we met with 
him about 11 months ago in his office with a group of citizens 
from Marshalltown. That is, there are no less than three direct 
fingers from the Mexican drug cartels into Marshalltown, IA--
three people, or three direct lines, from south of the border. 
The DEA is aware of it, and in the last several months, the 
last approximately year, we have been very lucky to have been 
granted High-Intensity Drug Trafficking Area status and began 
to work more intensely on a broader level than what BYRNE or 
our drug task force granted us. We are HIDTA now, and we have 
been able to work more intensely with the Federal Government.
    All that working together has brought us an enormous amount 
of intelligence, and it has allowed us to do a better job at 
policing our area. But it is very scary when you think that in 
rural Iowa, where people don't lock their doors, without fear 
of--at least if somebody burglarizes your house, you know who 
it is going to be and you can go to their door. I have been in 
this almost 23 years now, and the time that I have spent in 
Marshalltown as a police officer, and as a sheriff now in my 
12th year, we usually have been able to know who those people 
are. But with this new infiltration of individuals from south 
of the border it makes it very difficult to track.
    What we found out was, Mr. McGraw indicated, there were 
these three drug cartels that had direct pipelines to us--one 
of those being the Enisqua cartel. Working with the State, 
other local agencies, the State agency, and the DEA, we are 
very happy and very honored to have an opportunity to work with 
them and to see that the Enisqua's were actually put aside. I 
believe though, however, that they still are in Mexico, and I 
believe the Mexican Government--and correct me if I am wrong, 
and you will have better testimony than from me, as mine is 
third-hand on this--but the Mexican Government refuses to turn 
them over to the United States.
    You know the problem is not just border-oriented. If we 
think that we are going to be able to stop this stuff as it 
comes across the border, all of it, it is impossible to do 
that. We have to make a very broad effort. We have to make an 
effort that is going to involve dealing with the addicts. Our 
community has 27 agencies that deal with substance abuse, 
domestic violence, and youth violence. See, it is a necessity 
now in Marshalltown, IA, because we are seeing that these 
groups are coming in, and they are utilizing our youth. I can 
think of several teenagers in the last year that we have gone 
ahead and apprehended, no less than seven in our small 
community, that have been involved with drug trafficking.
    There are three families that have come to mind--Rosales, 
Costellanos, and Hernandez. And I say these names, not because 
all people with that name are bad, because that is not the case 
in Marshalltown, and I am sure it is not the case elsewhere in 
this country. But in Marshalltown, IA, there were over three 
distinct families that, at one time, our intelligence indicated 
were bringing anywhere from 50 to as much as 150 pounds of meth 
through our community a week.
    Mr. Hernandez, the elder brother, we apprehended off on a 
4-pound buy. Along with it, we got weapons. He later turned 
State's evidence; it is a well-known fact. He was put out on 
probation and, ultimately, is now doing Federal time for 
violation of that probation.
    We thought we had a big effort, that this was a big dealer, 
4 pounds of meth in little Marshalltown, IA. Little did we know 
that 10 months later, we would have an individual who was an 
informant for us, a white--with my guys in the street--
[laughter]--with all due respect, would like to think of 
someone of a drug, mopey-type of person, a guy that you would 
not trust very well, go, while he was wired, to another 
Hernandez, a brother, and have fronted to him, 10 pounds of 
methamphetamine. No money exchanged hands, just a front. That 
is over $100,000 given to this person that you would not trust 
in this room with all the rest of us here--10 pounds, $100,000. 
``Here take it. Don't forget, by the way,'' he said, ``you 
still owe me $10,000, too.''
    When you start to see drugs change hands like this, you 
have to really wonder, ``What kind of money is involved here, 
that a person can do that without being too concerned?'' Later 
on, search warrants were levied, and we found an additional 20 
pounds of meth in this individual's home, and $266,000 in cash.
    The Costellanos' family is another family. With this 
family, we took 1\1/2\ pound of meth on a delivery off of their 
16-year-old brother. And we began to find out that his young 
friends were lookouts for these groups--they ride around on 
their bicycles, and give warnings. As a matter of fact, we went 
in and we bought from Costellanos. And we raided this 
particular house three individual times within the last 8 
months--I might say without finding anything out during our 
raids, other than just basic scale on occasion and some very 
minor things. We were going to do an 8-pound buy from 
Costellanos. All he could come up with was 4 pounds of 
methamphetamine. We had $100,000 worth of cash on hand. We told 
him we wanted to buy more. He went to an arch rival group of 
his--the Rosales family--to get 4 more pounds for us. We found 
out that the Rosales--who we had really no indication was even 
involved with it at that point--was actually a bigger than any 
of the other two I have mentioned to you today. This is the 
type of thing that is continuously going on.
    I have listened to the testimony from Arlington, which is a 
large city by Dallas/Fort Worth, and I have had a chance to sit 
in, as a board member of the National Sheriffs, and hear 
sheriffs in much larger counties than Marshall County talk 
about large quantities. And we read all the time about 
multiple-kilo buys. But when we start to see this type of 
poison coming into the heartland of America, when we start to 
see our increases go up, anywhere from 40 to 50 percent just on 
our methamphetamine substance abuse committals. When I can sit 
as sheriff and see individuals deteriorate before my eyes, 
people I have known that were from good families--it needs 
more--it needs to be addressed harsher.
    And more emphatically, I guess the last thing is that it is 
very difficult, when you have five people that work on a drug 
task force, and the overtime that goes out, the taking people 
away from their families, their wives, their kids. Case in 
point--on Christmas Eve, we raided a meth lab in our county, 
and then to turn around and have them see that favorite status 
is given to the Mexican Government--that they are helping us 
fight, stand by side-by-side in this fight, and knowing what we 
know, and seeing what we see. And, quite frankly, I am not 
afraid to say it turns my stomach, as it does those other 
people in Marshall County, IA. There is no purpose in that. 
Until those people can show you, the Congress of this United 
States, that they are willing to work with you--I cannot see 
that occurring.
    Basically, my point to the committee is simple. I would 
like to just read this closing statement, and then we will call 
it--America's heartland should be free of drugs, and Mexico is 
not a friend of the United States in drug enforcement and 
counter drug policies. My experience has shown that Mexico 
provides safe havens for gangs and cartels that terrorize 
Marshall County, the heartland of America, and all the United 
States.
    Mexico sends the vast majority of crank across the border, 
either as refined meth all ready for sale or as precursor 
chemicals ready for a lab. Our experience in labs in Iowa and 
the Midwest has shown that these labs actually supplement the 
addiction problem that has been garnered and brought forth 
originally by the Mexican sales. When our agency begins to 
knock down Mexican sales, and they begin to go down in quantity 
and purity, the labs fire up, because it is addicts, as a rule, 
that make enough for themselves in a sale to survive. That is 
the type of labs we are seeing in Iowa. Either way, the result 
is the same--strung-out kids doped up on methamphetamine, teeth 
deteriorating, bodies deteriorating, athletes no longer good 
athletes.
    We need a Federal commitment, not just words, not just what 
we have heard for the last--this administration and 
administrations before about the war on drugs, but a legitimate 
commitment to make this a war, to put the money forth that is 
necessary. We cannot simply hope to interdict every pound of 
meth at the borders; that is an unrealistic hope. It is too 
broad of a border. Instead, we should focus our efforts on 
keeping our kids safe in their homes and communities, allowing 
them to grow up healthy and drug free. That means we must have 
Mexico as a faithful partner, a true partner, in the fight 
against drugs.
    I want to thank you for the opportunity to testify. I look 
forward to working with the committee to resolve this problem--
not just in Marshall County, because it is not just in Marshall 
County, IA; we are just seeing it, and that is why I brought it 
before you today--but the rest of this country. And I will be 
open to any questions you might have. Thank you very much.
    [The prepared statement of Mr. Kamatchus follows:]
    [GRAPHIC] [TIFF OMITTED]62622.020
    
    [GRAPHIC] [TIFF OMITTED]62622.021
    
    Mr. Mica. Thank you, Sheriff. Thank you, Chief, also.
    Let me just ask a couple of quick questions. Chief Bowman, 
we have heard you talk about the problem you have experienced 
in your community and, as the sheriff said, you are a larger 
community. Can you tell me--for the record and for this 
committee--where the source of most of the heroin is coming 
from, into your community?
    Chief Bowman. Right. DEA records, seizure records, indicate 
that the majority of the heroin is either Mexican brown or 
Mexican black tar heroin, so the predominant source of illegal 
heroin in our community is coming across the Mexican border.
    Mr. Mica. All right.
    And in the last 2 or 3 years, are you seeing more or less?
    Chief Bowman. There has been an alarming increase in the 
amount of narcotics seen coming into the community.
    Mr. Mica. Illegal narcotics, including heroin, metham-
phetamines, cocaine?
    Chief Bowman. Yes, all of the above, and marijuana, as 
well.
    Mr. Mica. Sheriff, what is the source of most of the 
methamphetamine? You have already stated it; would you state it 
again for the record?
    Mr. Kamatchus. It is indicated to us by intelligence, and 
by factual evidence that we have gathered at our local, State, 
and Federal level, all confirming each other, that well over--
it is over 90 percent--approximately 92 percent, I believe it 
is, of the methamphetamine that comes into our area comes from 
south of the border. It comes from Mexico. We see the----
    Mr. Mica. Sir, are you seeing over the last 2 or 3 years 
less or more of that illegal narcotic coming into Iowa? Less or 
more?
    Mr. Kamatchus. Far more.
    Mr. Mica. Far more.
    I really don't have any more questions. I will yield to the 
ranking member.
    Mrs. Mink. Thank you, Mr. Chairman.
    And both, Chief Bowman and Sheriff Kamatchus, I certainly 
want to express my very deep gratitude for the commitment that 
you have demonstrated in your testimony, with respect to, not 
only the appreciation of this terrible crisis in your 
communities, but your own personal involvement and commitment 
to safeguard your communities, particularly, our young people.
    That is certainly the issue which drives this subcommittee 
and the Congress. We want to find ways with which to deal with 
this issue. Only one aspect of our consideration is the matter 
of what to do to create a greater will in the Mexican 
Government to help us meet this crisis within the United 
States. I recognize that that is a legitimate issue.
    My concern since coming to this subcommittee, which is just 
this year, is to try to understand from the perspective of 
yourselves, as law enforcement officers, and from people who 
are knowledgeable about this issue in their communities, to 
what extent, greater efforts on the part of the Federal 
Government would help you interdict this narco-traffic that is 
coming into your community from wherever it is coming?
    What, if you could just describe--the both of you--one 
specific area where Federal assistance would help you in your 
law enforcement responsibilities, that you would ask the 
Congress to do something about. What would be that area of 
support that you would be seeking from the Federal Government?
    Chief Bowman, first.
    Chief Bowman. Yes, ma'am. Thank you for the question. 
Without any question, I would like to see us target and 
eradicate the supply, the point of origin of these drugs. We 
are helpless, in many instances, when we focus on the demand, 
on the individual user level. And in many instances, all of our 
best efforts have only minimal impact. So I think if the 
Federal Government could really focus on eradicating the supply 
of the drugs, that would be of substantial assistance to us.
    Mrs. Mink. Now when--following that argument, because that 
is the big issue----
    Chief Bowman. Yes.
    Mrs. Mink [continuing]. And one which troubles me a great 
deal. When we talk about the supply, as a law enforcement 
officer in all these myriad--thousands of communities where we 
have all of the officers that are engaged in this drug issue, 
concentrating their efforts, we talk about the supply in their 
communities. To what extent do you have the technical ability, 
the resource, to know, to establish, to identify the sources 
within your community? And are you able to dislodge them, at 
least from your community, not to say the country, but are you 
able to target your efforts, with the Federal Government's 
assistance, to eliminate, eradicate, arrest these individuals 
who are the sources of supply within your community?
    Chief Bowman. Our experience in Arlington is every time we 
arrest a local dealer, someone else pops up to replace him or 
her. There is a constant supply of dealers--there is a constant 
supply of people willing to take on the profit motive in order 
to keep the drugs flowing into the community and into 
communities around the country.
    We are able to successfully identify those people one at a 
time, but because of the overwhelming supply of drugs 
continuing to come into the community, we can't make any 
significant progress in totally eradicating the problem.
    Mrs. Mink. So the arrest of these individuals is sort of a 
futile effort because they keep coming with new faces? Is that 
generally the problem?
    Chief Bowman. Well, I don't want to say it is a futile 
effort, because we feel that every time we take one off the 
street, that is one fewer person out there that is dealing 
drugs. But we can't, and we have not to this day been able to 
arrest everybody. What we----
    Mrs. Mink. How many of these king-pins in your area have 
you arrested and are now serving time?
    Chief Bowman. Me, personally, or my department?
    Mrs. Mink. No, I mean your whole establishment.
    Chief Bowman. OK, I don't have the exact numbers on all of 
the king-pins in my area that we have arrested. I have 
indicated some of the large quantities that we have seized. We 
have tracked some of the points of origin back into Mexico. In 
the Dallas/Fort Worth area, we are continually arresting people 
who are deeply connected with the organizations, but I don't 
have an exact number for you.
    Mrs. Mink. Could you get a number to supply to the 
committee?
    Chief Bowman. I certainly can.
    Mrs. Mink. I thank you. I appreciate that. Thank you very 
much.
    Chief Bowman. Would you like over 3 years or 5 years or----
    Mrs. Mink. Whatever is readily available.
    Chief Bowman. OK.
    Mrs. Mink. Three years would be great.
    Mr. Mica. I thank the gentlelady.
    Now I am pleased to recognize the gentleman from 
California, Mr. Ose.
    Mr. Ose. I have no questions, Mr. Chairman.
    Mr. Mica. Then I will recognize the gentleman who is also 
the vice chairman of the subcommittee, Mr. Barr, the gentleman 
from Georgia.
    Mr. Barr. Thank you very much, Mr. Chairman.
    And I would like to thank both the chief and the sheriff 
for being here today. I have somewhat of a connection with 
Iowa; both my wife and I were born in Iowa, so it is a pleasure 
to see you here.
    One of the jobs that brings me, to some extent here today, 
is those of a U.S. Attorney; I served as a U.S. Attorney in 
Atlanta, from 1986 to about 1990. When I took over as U.S. 
Attorney after being appointed by President Reagan in 1986, one 
of the major cases that that office was handling at the time 
out of Atlanta was a very unique case, a very unusual case. It 
was a case involving Mexican heroin. It garnered a lot of media 
attention at the time for several reasons; one, because it was 
a very large case, but, second, because it was so unusual back 
in the 1980's to see Mexican heroin. It was ``gumball heroin'' 
back then or ``brown heroin.'' Nowadays, it is not at all 
unusual to see these cases. And the fact that you all are here, 
bears testament to the changing character of both the drug war, 
as well as the prevalence of certain types of drugs, and I 
think it is very disturbing that we are seeing this direct 
pipeline--not necessarily limited anymore to major 
international transshipment points such as Atlanta, but to 
communities, as you say, all across the heartland of America, 
including our border regions as well. And I appreciate you 
all's efforts to assist with the problem, both in your 
communities and by being here today to assist us on the 
national level.
    I did notice, Sheriff, that you mentioned Tom Constantine, 
the head of DEA. I have tremendous regard for him and for the 
men and women of DEA. And one of the things that the chairman 
and the rest of us are trying to do up here, federally, is to 
provide him more resources that he needs and the authorities 
that he needs. Despite some of the political problems that 
fester up here in Washington that prevent some of these things 
from being implemented, we are constantly trying to work with 
them because they are doing a tremendous job.
    You make the statement, Sheriff, in your prepared remarks, 
``Mexico is not a friend to the United States in drug 
enforcement and counter drug policies.'' That is a pretty 
direct and fairly profound statement, with which I happen to 
agree, not only based on what I know, serving as a Member of 
Congress, and serving on this subcommittee and on the Judiciary 
Committee, as well, but also based on classified briefings that 
we have had recently which, obviously, we can't go into here. 
But those classified briefings have made it crystal clear to me 
that the problems with the Mexican Government are even more 
problematic. The corruption reaches, I believe, to the very 
highest levels, and the highest levels of our Government are 
not taking steps--even basic, elementary steps--to impress on 
the Mexican Government how seriously we take this. We are 
moving in the opposite direction, certifying them, not as 
somebody that is not only not cooperating, but making it more 
difficult for our DEA agents, for example, and our sheriffs and 
police chiefs in this country to deal with the problem of 
trying to stem the tide of drugs coming in from Mexico. But 
they are making it harder for you to do that; they are making 
it harder for DEA to do its job by failing to even raise this 
to the level of an important foreign policy matter in our 
diplomatic negotiations with Mexico.
    So I appreciate very much your forthrightness in putting 
your finger on this problem.
    Would you, Chief Bowman, agree with that statement, that 
Mexico is not a friend to the United States in drug enforcement 
and counter drug policies?
    Chief Bowman. Yes. My experience as a police chief and a 
police officer seeing all of the drugs coming into our area 
across the Mexican border, I would have to agree with that 
statement regarding the narcotics. Yes, sir.
    Mr. Barr. One of the things that you talked about--and 
perhaps both of you did--was the percentage of drug-related 
activity, or the prevalence of drugs being involved in folks 
that are arrested for crimes and that are in your jails and 
prisons. If you could, briefly, just summarize those 
percentages for me, both, Chief, and then the sheriff.
    Mr. Kamatchus. OK. Well, as I mentioned before, the arrests 
that we see coming into our jail facility, about 92 percent of 
those individuals are directly related to substance abuse of 
some sort. Burglars are trying to take care of a habit, to feed 
a habit.
    Mr. Barr. Have you noticed an increase in that over the 
past 10 years or so?
    Mr. Kamatchus. I definitely have. There are two things that 
we have seen, though. Not only have we have seen an increase 
from around 60 percent to the 92 percent range in our area, not 
just the substance abuse, but we have seen a complete flip-
flop. When I first took over as sheriff 12 years ago, alcohol 
was actually the substance abuse of choice. People came in 
there because they drank too much, and that was a problem. 
Domestic violence was related to that.
    Now, all of a sudden, we are starting to see more and more 
of it that is coming up, these individuals are on 
methamphetamine, tied to methamphetamine, not necessarily as 
addicts, but somebody who maybe goes out and tries it, can't 
handle the addiction, maybe wastes their money away trying to 
buy it, those types of problems. And they try to fund it 
through theft, through burglary. And, quite frankly, they are 
involved in domestic violence, and they are involved with child 
abuse. There is a whole plethora of things that this drug 
actually brings on to them. But that is what we are seeing, and 
about 92 percent and I think it is 86 percent, roughly of that 
group that is actually methamphetamine.
    Chief Bowman. And, of course, my numbers come from Dallas 
County, 1996 and 1997, 63 percent of all males and 55 percent 
of all females arrested in Dallas County during that period all 
tested positively for at least one drug.
    Mr. Barr. And can I ask unanimous consent just to ask one 
quick, followup question, Mr. Chairman?
    Mr. Mica. Go right ahead.
    Mr. Barr. Is methamphetamine a serious and increasingly 
serious problem for you, Chief? And for both of you--again, you 
may have discussed this already but I think it is important--do 
you see a direct pipeline from Mexico to your communities 
involving methamphetamine?
    Chief Bowman. Absolutely. Methamphetamine is a very, very 
serious problem in our community as well. The abuse of that 
drug is apparent, although there are not as many deaths related 
to methamphetamine abuse. We do believe that methamphetamine 
and amphetamine abuse is the No. 1 drug abuse problem in our 
area.
    Mr. Kamatchus. In our area, obviously, methamphetamine 
leads the way, as far as the abuse of drugs. We recently 
received funding from HIDTA--we are part of the Midwestern 
HIDTA--and through that funding, along with BYRNE and through 
our Governor's Alliance on Substance Abuse, with that money as 
it comes from those two organizations, we have not only been 
able to put manpower on and study it, but we have been able to 
track back and develop the intelligence that is necessary to 
track this type of stuff.
    Basically, methamphetamine is the most abusive drug that we 
are seeing. Through our connections with the DEA, through 
indications or things that I have mentioned before like through 
the news media that came to Marshalltown to interview us, we 
see a direct pipeline back to those groups. And through, like I 
said before, Administrator Constantine, himself--their 
indication was that there were actually three fingers of drug 
cartels that had reached into Marshall County and the middle 
part of Iowa, in general.
    Mr. Barr. From Mexico?
    Mr. Kamatchus. From Mexico, sir; yes.
    Mr. Barr. Thank you.
    Mr. Kamatchus. Directly from south of the border.
    Mr. Barr. Thank you.
    Mr. Mica. Thank the gentleman.
    I would like to yield now to the gentleman, Mr. Hutchinson, 
from Arkansas.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I missed all of your oral testimony, but I have read your 
testimony, Sheriff, and I appreciate what you had to say.
    And I have been briefed, Chief, on your responses. I hail 
from the State of Arkansas, a rural area, and that has been 
mentioned as one of the areas where methamphetamine is headed, 
as it leaves your area, Chief. We have had problems with 
methamphetamine for some time.
    I wanted to ask a couple of questions of the sheriff. How 
large is your county?
    Mr. Kamatchus. My county is approximately 45,000 people. We 
have had an influx of Hispanics between 5,000 and 7,000 in the 
last 5 years, so it is hard to say, but around 45,000 people.
    Mr. Hutchinson. What is the reason for the influx of 
Hispanics?
    Mr. Kamatchus. Primarily due to our packing plant. We have 
a meat-packing plant that employs right around 2,000 people. 
But not only that, the northern half of my county is very--
well, I have been told at least--some of the best agricultural 
land in this part of the country.
    Mr. Hutchinson. All right. Sheriff, back in the 1980's--I, 
like Bob Barr--was in Federal prosecution and methamphetamine 
was an increasing problem in Arkansas in the rural areas. We 
were getting the methamphetamine from the Bandita motorcycle 
gang--that was one of the cases I handled. It wasn't coming 
from Mexico. It was a different supply source. And we had our 
own methamphetamine that was manufactured in homemade labs. And 
so it was a problem before there was a pipeline from Mexico.
    Did you have that experience in your county, that you had a 
methamphetamine problem before this pipeline existed from 
Mexico? And, how has that complicated it?
    Mr. Kamatchus. Well, basically, the methamphetamine problem 
has been around, like you said, for years. It took a backseat 
in the old days, if you would, to marijuana, then to cocaine, 
and even heroin began to pop up in our area. It was 
predominantly from bikers. We had the same situation. But most 
of the methamphetamine that we confiscated in those days was in 
grams and in ounces. It was a much smaller amount. And the 
purity of it that we saw at that point was not very high. It 
was usually in the 20 to 30 percent on the high side, mind you.
    Now what we are finding is some of the Mexican 
methamphetamine that is coming in, that we know is tracked 
directly back--and I might add that we track this because we 
see them sending money south of the border, which is another 
thing that we are finding. Most of the methamphetamine that is 
coming to us has been in the 60-plus, actually as high as 78 
percent methamphetamine. It is much higher.
    Mr. Hutchinson. The purity is higher?
    Mr. Kamatchus. It is higher, that is right.
    Mr. Hutchinson. And the precursor chemicals are not coming 
in, it is the finished product that is coming in?
    Mr. Kamatchus. You are exactly right.
    Now I might add one more thing here about the precursors 
and the labs. Iowa had over 300 labs last year that they took 
off in the State of Iowa. But predominantly, those labs are 
ounce labs to half a pound; they are small amounts. And all the 
intelligence that has been gathered from the arrests and the 
confiscation of those labs, has indicated that those are 
predominantly abuser labs. These are individuals who, 
basically, have developed a lab to take care of their own 
problem and maybe sell an ounce or two to make a buck.
    Mr. Hutchinson. Going back to the pipeline to Mexico, what 
is the distribution network that the Mexican drug dealers rely 
upon in your area?
    Mr. Kamatchus. In my area?
    Mr. Hutchinson. Yes, sir.
    Mr. Kamatchus. Predominantly, it is, frankly, the 
individuals that have been like migrated to us, the Hispanic 
individuals who migrated to us. We have had some of those that 
have been ``mules,'' going back and forth south of the border. 
They have come up to work in the packing plants. They store it 
in their vehicles. We have had some that have been shipped in 
to us by common carrier, but more often than not, it is just 
motor vehicle.
    Mr. Hutchinson. Is it confined--the sales and distribution 
and the network of methamphetamine distribution--to the 
Hispanics that have come up from Mexico to work in the packing 
plants, or does it go into the schools? Does it impact the 
whole community?
    Mr. Kamatchus. Yes. What I have talked to you about has 
been the bulk amounts. Beyond that, once it starts to filter 
out into the community, for street sales, then it goes in all 
segments, regardless of wealth, or schools. It spreads out 
throughout the whole community.
    Mr. Hutchinson. And I am sort of cutting you off a little 
bit because I want to come----
    Mr. Kamatchus. Yes.
    Mr. Hutchinson. Back to the chief. Would you describe the 
distribution network that you see from the Mexican pipeline?
    Chief Bowman. Right. I would describe our network as being 
a diverse network of people. We see distributors across every 
demographic or demographically represented type of individual. 
It is not confined to Hispanic. We have African-Americans; we 
have Caucasians. We have the wealthy, as well as 
socioeconomically depressed individuals within the population 
along the distribution chain. There are some gang-affiliated 
distributions going on, as well. Some motorcycle gangs are part 
of the distribution chain.
    But we, too, primarily see a lot of vehicle shipments, a 
lot of the drugs hidden in compartments of cars, of trains, of 
trucks, of airplanes, to get the large quantities to the 
individuals who are, then, distributing it into the schools, 
into the neighborhoods, into the general population.
    Mr. Hutchinson. Thank you. My time is up.
    Mr. Mica. I would like to yield. I think the gentleman from 
Georgia had an additional question.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Barr.
    Mr. Barr. Sheriff, I think you were mentioning being able 
to trace the money from your communities going back down to 
Mexico. How were you able to do that?
    Mr. Kamatchus. Well, the only way that we can do it, and 
sadly enough, it is a very abrupt wall. We see the money 
transfer. When we do search warrants on many of our raids that 
we have been able to do in the last years, time and time again 
from these drug dealers, we see transfers to other bank 
accounts and down to wire transfers into Mexico.
    It is my understanding--because, of course, Marshall County 
Sheriff's Office isn't going down there to investigate it--but 
my understanding from the DEA is that there really is no help 
from the Mexican Government in following up on those transfers. 
So, where it goes to, we know at least some money went somehow, 
and that is where we hit the wall with it.
    Mr. Barr. Chief, with regard to your community, would it be 
accurate for purposes of these drugs coming into Arlington, to 
consider it a forward basing location? I mean all of the drugs 
that come in, don't stay in your community, do they?
    Chief Bowman. Right. Right.
    Mr. Barr. Where do they go? And how do they leave your 
community to reach these other locations? And what would some 
of those locations be?
    Chief Bowman. Right. We know for certain that the Dallas/
Fort Worth, north Texas area is predominantly a transshipment 
point for narcotics going into New York and to Chicago and to 
other areas on the East Coast, into this area, to the Midwest, 
and to the Kansas area, to the Iowa area. We are a major 
transshipment point. A small amount of the drugs into our area 
is distributed within the area, but the majority of it is 
shipped out into various other regions of the country, 
primarily, north and east of us.
    Mr. Barr. Do you all work with INS in your communities?
    Chief Bowman. Yes, we do.
    Mr. Barr. Sheriff, do you work with INS?
    Mr. Kamatchus. Yes. My chief of police has actually 
testified before Congress on that issue, working with INS, in 
the past, and we do work with them. The police department more 
than my sheriff's office, actually.
    Mr. Barr. One of the problems that we have seen that we are 
looking into up here is a gap between what Congress is 
directing through appropriations, for example, for interior 
enforcement through INS, and their support of local police and 
local sheriffs. We are seeing a gap between what we think is 
happening and have directed up here through funding and what 
happens actually in communities and districts and regions. And 
they are being told to cut back. In some instances, that we 
understand--I understand that they are being told not to move 
forward with certain operations involving Mexican 
methamphetamine and illegal aliens, for political reasons.
    Do you sense any of that in your communities? Or is the 
relationship with DEA as robust as it has always been? Do you 
see more of the resources in your communities through INS and 
their ability to help you, which would reflect the fact that 
we, in Congress, have appropriated more money for that? Or do 
you see something different?
    Chief Bowman. My experience and our agencies' experience 
with INS has been positive. We have an excellent working 
relationship with INS, and I think sometimes the INS officers 
are frustrated by the laws or the policies or the restrictions 
placed upon them, because they, too, have problems finally 
resolving the immigration problems that they are faced with on 
a daily basis. But, in terms of cooperation, there is a great 
deal of cooperation, not only with the INS, but with the DEA 
and ATF and many other Federal agencies as well.
    Mr. Barr. I was talking primarily about their resources. We 
find, and I find, that there is always very, very good 
cooperation and a willingness to help out. But in terms of the 
resources that they have available, have you noticed any 
change?
    Chief Bowman. I personally have not noticed any change. I 
can say in our area, our INS division trys to accommodate 
whatever request that we have. If they are facing resource 
problems, it is an internal problem that they don't discuss 
with me or with us.
    Mr. Barr. Sheriff.
    Mr. Kamatchus. I guess we have seen an increase in INS in 
Iowa. We have seen an increase in agents. But an increase in 
agents and building that working relationship, which we are, 
isn't really where it is all at. It goes beyond that point. We 
have seen a huge cutback in the U.S. Marshals, for instance, 
where they aren't receiving the cap funding and the funding for 
housing of inmates. And the policy that came out of INS at the 
top levels, my understanding--and correct me if I am wrong in 
this--was that they were no longer going to put emphasis on 
illegal immigration, which I don't have a problem with, 
frankly. I have a greater problem, though, when they won't deal 
with an individual until they are found guilty, and they are 
taken through the court system. And with a bottleneck at the 
Marshals, with them not being able to take them through the 
Federal court system because of the lack of funding to them, I 
am a little concerned about that.
    Frankly, the funding for BYRNE and for HIDTA, the funding 
for the Marshals--those are all things that are very important 
when you are talking about dollars and cents. And they trickle 
down to us, and those are very important pipelines that we 
can't lose at our level. And we have to keep those things up.
    Immigration, yes; we have seen more agents, but if they 
don't have any place to put them, what good does it do?
    Mr. Barr. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mica. I want to take this opportunity to thank both of 
you for providing this testimony today and giving us a glimpse 
of what is going on in the heartland of America, and also in 
Texas, so close to the Mexican/United States border. We could 
probably call 100 of your colleagues from around the country 
and get a similar response, unfortunately.
    But we do thank you for your dedication to law enforcement 
and also for your cooperation with our subcommittee.
    We will excuse you at this time.
    Mr. Kamatchus. Thank you, Mr. Chairman.
    Chief Bowman. Thank you, Mr. Chairman.
    Mr. Barr. I would like to, Mr. Chairman, before, if I 
could----
    Mr. Mica. Yes.
    Mr. Barr. The witnesses have mentioned BYRNE grants. It is 
my understanding, and I would like to confirm this with the 
chairman, that the administration has zeroed out BYRNE grant 
moneys in this budget request. Is that correct?
    Mr. Mica. I believe that is correct.
    Mr. Barr. That might be something that you all could help 
with.
    Mr. Kamatchus. Well, if I might have----
    Mr. Barr. We are going to, also.
    Mr. Kamatchus. If I might have the liberty, sir, that will 
destroy our task force. We are funded by BYRNE; we don't have 
the assets in rural America, in our county. If we don't have 
BYRNE and HIDTA, you might just as well forget about it, and 
then I hate to see where that is going to go. I know it is not 
just Marshalltown; it is rural America.
    I don't know about the chief in Larger, but I know it has a 
definite effect on us, not just enforcement, but education and 
all across the board.
    Mr. Mica. Well, again, we thank you for your testimony, 
both of you. We will excuse you at this time.
    I would like to call our second panel. We have Mr. Jeff 
Weitzman, who is a Canine Enforcement Officer with the U.S. 
Customs Service, in the Orlando Field Division. We also have a 
former, recently former Agent of the U.S. Customs Service, Mr. 
William F. Gately.
    As I explained, gentlemen, to the other panelists in our 
first panel, that this is an investigations and oversight 
subcommittee of Congress. So if you would stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses both answered in the affirmative. 
We will let the record reflect that.
    I would like to welcome you both now, and I think you both 
have unique perspectives on what you have seen relating to the 
narcotics problems. In particular, we are interested in the 
question of Mexico today.
    I recognize first, Mr. Jeff Weitzman, for your testimony.

 STATEMENTS OF JEFF WEITZMAN, CANINE ENFORCEMENT OFFICER, U.S. 
CUSTOMS SERVICE, ORLANDO FIELD DIVISION; AND WILLIAM F. GATELY, 
               FORMER AGENT, U.S. CUSTOMS SERVICE

    Mr. Weitzman. Hello, and thank you for the opportunity to 
appear before this subcommittee.
    My name is Jeffrey Weitzman, and I am a Canine Enforcement 
Officer for the U.S. Customs Service.
    I am not going to give a long opening statement because I 
would rather spend the valuable time answering questions for 
the subcommittee.
    For those of you who are not aware of who I am, I was the 
canine officer depicted on ``60 Minutes'' in 1997. I was called 
into my supervisor's office at U.S. Customs in San Diego and 
told to sign a propane gas truck loaded with approximately 4.3 
tons of cocaine to the streets of our country. This incident 
happened in October 1990.
    The seizure of coke was the largest in the history of the 
United States border with Mexico and is directly linked to a 
seizure of 21.4 tons of cocaine seized in the community of 
Sylmar, CA, in 1989. This massive load crossed the U.S. border 
via Texas in numerous vehicles.
    These two intertwined loads expose the border's role as a 
conduit for illegal substances entering the United States. 
Today the situation has worsened. The price of cocaine has 
dropped significantly since my bust in 1990, and today we face 
a greater challenge. Our resources are failing to meet the 
threat.
    The border has become a dam with leaks from California to 
Texas, and before the dam explodes, we had better act, and we 
had better act now.
    I open the floor to any questions you have.
    [The prepared statement of Mr. Weitzman follows:]
    [GRAPHIC] [TIFF OMITTED]62622.022
    
    Mr. Mica. I thank you for your statement. What we are going 
to do is, is that we will hear from Mr. Gately next, and then 
we will get into questions.
    Mr. Gately, we have read a little bit about some of your 
public testimony, at least as far as what has been published to 
date, and we are pleased to welcome you, and thank you for 
volunteering as a witness and providing us with your testimony 
today.
    You are recognized, sir.
    Mr. Gately. Thank you, Mr. Chairman, members of the 
committee. I am here at your invitation. I have provided your 
staff with a resume of my Federal service which contains an 
overview of my experience----
    Mr. Mica. Mr. Gately, would you mind just pulling that up a 
little bit closer?
    Mr. Gately. No, sir--which contains an overview of my 
experience as a U.S. Marine and as a law enforcement officer. 
My career began in Washington, DC, as a second-generation 
police officer with the Metropolitan Police Department in 1971. 
In 1978, I transferred to U.S. Customs as a Special Agent and 
served 21 years in major field offices in Washington State, 
California, Florida, and Arizona. In August 1992, I was 
transferred to the Special Agent in Charge Office in Los 
Angeles and assigned as the Assistant Director of the HIDTA 
Task Force. In April 1993, I was reassigned as the Assistant 
Special Agent in Charge of the Financial and Drug Smuggling 
Investigations Division of the Los Angeles Field Office. In 
that capacity, I also assumed the directorship of the Omega 
Task Force, a dedicated undercover investigative unit of U.S. 
Customs.
    It was as the Director of the Omega Task Force, that I 
formulated the operational plan and later led the 
investigations which comprised Operation Casablanca.
    I want to state now that at no time during the planning, 
operational, or prosecutorial phase of Operation Casablanca 
have I sought any forum to obtain publicity for myself or the 
investigation. Up until the March 16, 1999, story published by 
the New York Times, I have not, although approached many times 
by journalists and a writer, agreed to an interview. Mr. Golden 
of the New York Times made several attempts to interview me on 
or off the record more than 9 months ago. It was not until I 
retired from Federal service, did I agree to meet with him.
    I told Mr. Golden then, and I tell the committee today, 
that everything I share with you about Operation Casablanca can 
be verified by the record and by the evidence. In addition, 
there are Special Agents, auditors, contract forensic 
accountants, task force officers of the Customs Service, 
Federal prosecutors, Treasury, Justice, and Federal Reserve 
officials who can, in part, corroborate what I tell you.
    In this regard, I will get to the point which I believe 
brings me here today as a witness. There are no less than 15 
audio and video tapes of meetings and conversations, all of 
which have been transcribed, regarding the offer, as well as 
the subsequent negotiations, by potential targets of the 
investigation to engage in a transaction, the substance of 
which was to move $1.15 billion in illicit proceeds. These 
tapes contain the communications between four defendant 
bankers, two Mafia members of the Juarez drug cartel, and the 
U.S. Customs Service confidential informant who engaged in 
extensive discussions regarding the movement of this money. Of 
course, the confidential informant engaged in these discussions 
at the direction of the U.S. Customs Service.
    As an example of the evidence contained in these tapes, it 
is indisputable that the Secretary of Defense for Mexico was 
identified as one of the owners of the money on several 
occasions during the course of these meetings and 
conversations. It is in these tapes that you will find the 
evidence that would have led any reasonable person to conclude, 
as I did, that there was compelling evidence to continue the 
investigation.
    Let me relate to you, in some more specificity, why I 
believe these communications constituted credible evidence that 
deserved further investigation.
    Excuse me a second.
    Some have stated that the $1.15 billion offered to launder 
as illicit proceeds was nothing more than bravado by unreliable 
crooks. However, Operation Casablanca was always about the 
laundering of drug proceeds by the Colombian and Mexican 
cartels through Mexican financial institutions and profiting 
from such activities.
    The individuals who presented the offer to launder the 
$1.15 billion had already engaged in illicit activity connected 
to Operation Casablanca by laundering substantial amounts of 
drug proceeds and profiting substantially from the laundering 
activities to fuel their insatiable greed.
    One of the individuals, now a defendant, Victor Alcala-
Navarro, had been associated with the operation since November 
1995. He not only delivered the first banker to the operation, 
but he introduced the confidential informant to members of the 
leaders of the Juarez cartel, including Jose Alverez-Tostado, 
the heir apparent to the cartel boss following the reported 
death of Amado Carrillo-Fuentes. These introductions were not 
done for the purpose of impressing the confidential informant 
or undercover agents, but rather for the purpose of creating 
and expanding business alliances in an effort to make more 
money from illicit activity.
    One of Alcala-Navarro's associates and also one of the 
Mafia members who engaged in negotiations regarding the $1.15 
billion transaction was Ernesto Martin. Martin was motivated by 
the same factors as Alcala-Navarro--the need to make money, or 
the desire to make money, from the laundering of drug proceeds. 
He had also delivered a number of bankers to the operation who 
were ready, willing, and able to launder drug proceeds. And I 
will add, not in my statement, very instructive about it.
    It was these individuals who first brought to our attention 
the idea of laundering $1.15 billion, and who first made any 
mention of the ownership of that money. During the time the 
operation was engaged with Alcala-Navarro, Martin, and their 
boss, Jose Alverez-Tostado, there was never any indication that 
the information they were providing was false, misleading, or 
exaggerated. It is for these reasons that I concluded at the 
time, and still believe, that there was evidence sufficient to 
justify pursuing the transaction related to the $1.15 billion.
    There has been a great deal said in defense of the Mexican 
Government's integrity and their level of cooperation in 
investigations such as Operation Casablanca. At the same time, 
I have been criticized for expressing my opinion to the 
contrary.
    In my opinion, Mexico and the word ``corruption'' are 
synonymous. In Mexico, there is no line which can be drawn to 
separate the police and the prosecutors from the Mafia, the 
politicians from the Mafia, the government from the financial 
institutions, or any combination of these entities.
    The general population is helpless to change the system. A 
myriad of stories printed in every major news publication in 
Latin America can be counted on a daily basis refuting the 
truth of their alleged efforts. The most prevalent theme of all 
the stories during the mid-1990's was Mexico's emergence as the 
laundering center for billions in drug profits. But the most 
disturbing element of the stories was the complicity of their 
financial institutions--institutions regulated by the Salinas 
and now the Zedillo government.
    There was never a time in my 21 years as a Customs Special 
Agent where I believed that I could trust the safety and 
security of an investigation or place the lives of our agents 
in the domain of any member of the Mexican Government. Unlike 
politicians and diplomats, my experiences with the Mexican law 
enforcement officials has occurred in the field--where the 
stakes are measured in life and death. This is not drama, it is 
reality. There has been no event or experience I have had, or 
know to have occurred with my peers, which instills in me a 
sense of trust in their ability to keep a confidence.
    Operation Casablanca was no exception. The banks in Mexico 
are regulated by the government. In that regard, our activity 
should have been ferreted out and exposed by the regulators who 
supervise these institutions. The paper-thin contracts we 
established with each of these institutions were a sham. Even a 
cursory examination of the transactions related to our 
relationship reeked of money laundering.
    What is even more shocking to me is that above my 
objections, prior to the initiation of this operation, I was 
required to brief Mexican officials at the Deputy Attorney 
General and the Assistant Secretary level in the Hacienda, or 
the equivalent of our Treasury Department. During these 
briefings, I offered them the evidence we had, which at the 
time indicated seven Mexican banks actively laundering drug 
proceeds for Cali cartel traffickers. I supplied these 
officials with the same presentation I gave our Ambassador 
James Jones, as well as actual copies of bank drafts issued by 
the Mexican banks which were directed to our undercover 
operation as part of the laundering process.
    As a criminal investigator with more than 29 years of 
experience, a success record in my field that is recognized by 
my peers and my superiors--despite what they may say behind 
closed doors--it was my recommendation that we continue the 
operation until we could gain sufficient evidence to develop a 
case against the conspirators identified in those tapes.
    I do not believe that until the article in the New York 
Times was published that anyone who remained in charge of 
Operation Casablanca subsequent to my removal, had reviewed or 
evaluated these tapes and transcripts for their evidentiary 
value. In fact, I had transcripts of these conversations 
prepared at the time the conversations took place for the 
explicit purpose of informing the chain of command of the 
events surrounding the $1.15-billion transaction, and I 
personally briefed the chain of command on these events as they 
occurred.
    In my opinion--and I believe the facts and circumstances 
that are available will support such an opinion--this 
investigation was not pursued because of the numerous problems 
that developed and persisted during the course of Operation 
Casablanca. This is not my tale of woe. If I am at the center 
of these conflicts and accusations, it is only because I was 
performing my job to the best of my abilities. I take full 
responsibility for all of my actions during the course of 
Operation Casablanca. I never believed it would be a task 
without great risks and problems--nothing in Government is, 
especially undercover investigative operations.
    I will now summarize for you the various reasons, as I 
believe them to have occurred.
    One, during the planning and operational phases of 
Operation Casablanca, beginning in 1994 through May 18, 1998, I 
was confronted with a gauntlet of critics, disbelievers, and 
obstructionists. These individuals held positions in Customs, 
DEA, the FBI, and the Justice Department. The issues raised by 
them ranged from skepticism about our ability to deal on the 
levels outlined in the operational plan, to issues surrounding 
the political and economic impact of our investigation on 
Mexico. In their individual and sometimes collaborative efforts 
to serve an agenda that opposed the operation plan, they sought 
to block the initiation, limit the scope, and obstruct the 
progress of Operation Casablanca. In this regard, it is 
noteworthy that some of the disbelievers, and even an 
obstructionist, became supporters of the operation. Regardless, 
the negative energy produced by the remaining opposing forces 
was always present and had to be fought back at every stage of 
the investigation.
    Two, for approximately 1 year prior to the May 1998 take-
down of Operation Casablanca, John Hensley, the Special Agent 
in Charge in Los Angeles, continually leveled criminal 
accusations against me. Those accusations involved the alleged 
loss, misappropriation, and theft of millions of dollars in 
drug proceeds and Government funds related to the ongoing 
investigation. Although each accusation was thoroughly 
investigated and found to be baseless, he persisted in 
reinventing his spurious stories in order to discredit the 
operation and me.
    Beginning in the fall of 1997, Mr. Hensley leaked 
information about Operation Casablanca. At a law enforcement 
conference in Tampa, FL, Mr. Hensley provided information about 
the operation to a network news executive. Later in the 
investigation, Mr. Hensley invited several congressional staff 
representatives to Los Angeles to be briefed on a major 
undercover money-laundering investigation. Upon their arrival, 
he not only paraded them through the undercover offsite which 
housed the Omega Task Force, he took them to the audio and 
video monitoring station of the undercover storefront, Emerald 
Empire. At this location, they were allowed to view through the 
monitors the interior of the offices and the warehouse.
    Four, subsequent to a briefing regarding Operation 
Casablanca that I presented to, then, Under Secretary of the 
Treasury, Raymond W. Kelly, in late 1997, Mr. Kelly stated to 
all present that he would seek out and punish anyone leaking 
information to the media regarding the operation. A short time 
later, I believe Mr. Hensley, who was present at that meeting, 
and others he manipulated, provided Mr. Kelly with a copy of a 
book I authored in 1994. According to witnesses present, Mr. 
Kelly was told that I was not only the leak, but that I was 
dramatizing the facts about the investigation, as well as the 
take-down plan in order to write a book.
    Five, there were two deliberate acts which I believe were 
intended to shut down our operations in Chicago and New York. I 
am convinced both occurred at the direction of Mr. Hensley and 
Mr. John Varrone, the Special Agent in Charge of the New York 
Field Office. On both occasions, orders issued by me were 
disregarded, and enforcement actions were taken. The arrests 
and seizures which occurred contrary to the agreed plan of 
action--and I will add without the knowledge of the undercover 
agents or their cover team--endangered the continued safety and 
credibility of our undercover agents and confidential 
informant. In addition, it had a serious debilitating effect on 
a relationship our undercover agents and the informant shared 
with the Juarez and Cali cartels' organizational structures in 
Chicago and New York. It also seriously damaged the 
relationship we had worked so hard to establish with the 
Colombian and Mexican Mafia members at the highest level. 
Despite the severity of these actions, we were able to convince 
our criminal partners that our undercover agents and the 
informant were not at fault for these events. But the fact 
remained that the cartels shut down their operations to search 
out the mole in their organization.
    Based upon these facts and events, I believe Mr. Kelly had 
lost faith in me and was not willing to risk going forward with 
any aspect of the investigation, regardless of the violation or 
the violator. Mr. Kelly, I am certain, believes he did the 
right thing. I believe that the combination of misinformation, 
spurious accusations, and the politics infused into this 
operation from its inception skewed his judgment. At no time 
was I given an opportunity to know that he had received this 
bogus information, nor was I given an opportunity by Mr. Kelly 
or anyone else to defend myself.
    Immediately after the extremely successful take down of 
Operation Casablanca, a take-down plan which was never accepted 
in its entirety by anyone, I requested a meeting with Mr. Kelly 
to resolve the issues which I now believe to have been the 
reasons for his actions. My purpose was to regain his 
confidence and to end the attacks on my integrity and the 
integrity of the investigations.
    Within 5 weeks of the covert phase of the operation closing 
and the formulation of the security for the confidential 
informant, I was ``temporarily and indefinitely'' reassigned to 
Customs headquarters. This reassignment came via a telephone 
call the day before I was scheduled to return to Los Angeles. 
At no time during the next 7 months was I provided with an 
official explanation for this action. There is no document 
issued by the agency which chronicles this action outside of a 
travel authorization. During my time in Customs headquarters, I 
was never given a specific or even a general assignment. When I 
did anything, it was of my own volition. In that regard, I was 
effectively removed from the operational command of the Omega 
Task Force and all aspects of Operation Casablanca's 
investigations.
    During the time I remained in this TDY position, I 
continued my quest to seek an audience with Mr. Kelly, who had 
now become the Customs Commissioner. I remained steadfast in my 
efforts in the hope that I could regain my position in Los 
Angeles. In late December, approximately 7 months after my 
first request and after I had announced plans to retire, I was 
afforded this audience. As a requisite to my appearance in his 
office, I was required by his staff to put in writing the 
reasons for my request. I was informed that Mr. Kelly would not 
entertain any discussions related to Mr. Hensley and would only 
address operational issues.
    It was at this meeting that I informed Mr. Kelly that I 
believed there had been no investigative efforts, subsequent to 
the May 1998 take-down, directed at developing any of the 
information acquired in Operation Casablanca. I also informed 
him that above my objections, I had been directed to Los 
Angeles to interrogate one of the major Cali-based defendants. 
I informed Mr. Kelly that, based upon my meeting in Los Angeles 
during this interrogation, I believed the Omega Task Force 
lacked leadership and was no longer an effective and productive 
investigative unit. During my meeting with Mr. Kelly, I also 
requested an official document which reports the findings of 
the Internal Affairs investigations related to Mr. Hensley's 
false and malicious accusations. To this day, I have not 
received an official response from any Customs Service officer 
in regard to any of the topics I had discussed with Mr. Kelly.
    In closing, I must protest any assertion that I regard 
myself as a ``lone crusader.'' I am what you see--nothing more, 
nothing less. However, I do regard myself as a former Federal 
law enforcement officer who showed up everyday to perform an 
honest day's work. My only motivation was to honorably serve as 
my oath and the mission dictated, a culture passed on to me by 
my parents and aspired to by me since I earned the title, U.S. 
Marine.
    Thank you.
    [The prepared statement of Mr. Gately follows:]
    [GRAPHIC] [TIFF OMITTED]62622.023
    
    [GRAPHIC] [TIFF OMITTED]62622.024
    
    [GRAPHIC] [TIFF OMITTED]62622.025
    
    [GRAPHIC] [TIFF OMITTED]62622.026
    
    [GRAPHIC] [TIFF OMITTED]62622.027
    
    [GRAPHIC] [TIFF OMITTED]62622.028
    
    [GRAPHIC] [TIFF OMITTED]62622.029
    
    [GRAPHIC] [TIFF OMITTED]62622.030
    
    Mr. Mica. Thank you, Mr. Gately, and also, Mr. Weitzman, 
for your testimony.
    I would like to start off by asking Mr. Gately a couple of 
questions.
    Mr. Gately, for the first time today, I heard of the 
existence of 15--I think you said--audio and video tapes. Was 
that figure correct? That monitored----
    Mr. Gately. That is correct, sir.
    Mr. Mica [continuing]. Some of the activity that you 
observed?
    Mr. Gately. That is correct, sir.
    Mr. Mica. And did you also say that you made transcripts of 
these tapes?
    Mr. Gately. Yes, sir. There were transcripts of the tapes. 
Initially five, as they came in, were transcribed as we 
received the tapes. And that information was passed immediately 
to the chain of command.
    Mr. Mica. And where are the audio and video tapes at this 
point?
    Mr. Gately. They are in evidence in Los Angeles.
    Mr. Mica. In evidence.
    Would these also be used in this Operation Casablanca case?
    Mr. Gately. The one going to trial on Monday, sir?
    Mr. Mica. Yes.
    Mr. Gately. I do not believe they would be.
    Mr. Mica. You do not?
    Can you think of any reason why the subcommittee wouldn't 
have access? Is there any ongoing criminal investigation--you 
have seen the tapes--or anything that would prohibit us from 
obtaining a copy of the tapes?
    Mr. Gately. I don't see any specific reason because it is 
my understanding there is, ``no case,'' or no continuing 
investigation regarding the nature of those tapes.
    Mr. Mica. And within these tapes, you believe there is 
substantial evidence or enough hard material that would link 
trafficking and corruption to certain individuals who you have 
said have been, you know, involved at the highest levels?
    Mr. Gately. The information in those tapes is an offer and 
the communications related to negotiations about laundering 
$1.15 billion, sir. It identifies, in two or three of those 
tapes or more, the owners of the money, not by name, but by 
position within the Mexican Government, official position 
within the Mexican Government.
    Mr. Mica. And how far up would those individuals be in the 
Mexican Government?
    Mr. Gately. The highest position identified in those tapes, 
as an owner of the money, in the Mexican Government, was the 
Secretary of Defense.
    Mr. Mica. Secretary of Defense. Something that disturbs me 
about your testimony is it seemed that at, not just one 
juncture, but many junctures, you testified that it was almost 
an effort to close down these investigations. And do you 
believe that is because they indicated people at the highest 
levels of the Mexican Government were involved?
    Mr. Gately. As I stated, sir, it was a combination of a 
series of problems, where they did not want the investigation 
to even begin. But throughout the investigation, the planning 
and operational stages, politics was always infused into the 
process. I have no clear understanding why policemen or law 
enforcement officials seem to think that they need to take on 
the moniker of diplomats and politicians. If we target drug 
traffickers and money launders, the fallout should be whatever 
the fallout is. If, in fact, we are targeting the financial 
institutions of Mexico--and we were--if the fallout is that 
there is corruption that stems from that, then that is just 
part of the ongoing investigation. The corruption is in Mexico, 
not in the United States. We shouldn't be worried about who the 
defendant is, or the potential defendant is.
    Mr. Mica. But you--it appears that you got the feeling that 
this did lead to the highest levels of the Mexican Government, 
and that when you said ``politics entered,'' was it that this, 
diplomatically, would be very unsettling? Or this, politically, 
on an international level, or national level, would be 
embarrassing?
    Mr. Gately. All that, sir. That somehow----
    Mr. Mica. I don't want to put words in your mouth.
    Mr. Gately. Well, you are not. But you said--it is all of 
what you said and conjecture beyond that. There was a lot of 
conjecture, statements to the effect, ``Well, what is the 
financial or economic impact on the country of Mexico, or their 
stability as an economic entity if we do this?'' Things that I 
think law enforcement should not pay much attention to. That is 
for people in this body to worry about, not for police 
officials or law enforcement officials to infuse into operation 
plans and prosecutions.
    Mr. Mica. But as a professional, and if you had your say, 
you would have pursued this no matter where it led? Is that 
correct?
    Mr. Gately. Yes, sir; given the opportunity, I would have.
    Mr. Mica. At some point, there was an indication that this 
corruption might lead as far as--or the source of some of this 
money might lead--as far as the Office of the President of 
Mexico. Is there any evidence on tape of that? Or, comments to 
that----
    Mr. Gately. There is one statement on tape to that effect. 
Yes, sir.
    Mr. Mica. There is?
    I don't have any further questions at this time. If I may, 
I would like to divide the time that is left--you have been 
here for the whole testimony. Would you like to ask questions 
at this point?
    Mr. Barr. That will be appropriate. I don't know about our 
colleague on the minority side, though. I don't want to use up 
his time.
    Mr. Mica. We can split the time. We will give you five, and 
five--I think we have got a 5-minute warning.
    Mr. Barr. OK.
    Mr. Mica. If staff will keep us warned.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Gately, you are here today voluntarily, is that 
correct?
    Mr. Gately. Yes, sir, I am.
    Mr. Barr. And were your colleagues and former colleagues 
delighted with your being here and encouraged you to attend 
this hearing and testify?
    Mr. Gately. No, sir. I can categorically say that they are 
not very happy about it.
    Mr. Barr. In fact, were you not pressured not to testify?
    Mr. Gately. I received no direct statement to that effect, 
but I did receive faxes at my home outlining Treasury 
regulations, giving guidance on testifying before this 
committee. Even though those Treasury regulations apply to 
current employees of the Treasury Department, I was provided 
with a copy of them. Today, I received a copy of the memorandum 
that categorically states that references that were made in the 
New York Times are blatantly false.
    I don't think they are very happy with me, sir; no.
    Mr. Barr. And you take these communications with you as 
pressure from the Department to have you not testify today?
    Mr. Gately. I think they would----
    Mr. Barr. I know I don't want to put words in your mouth.
    Mr. Gately. You are not, sir. I think--my take on it is, 
they would be very happy if I didn't show up here today.
    Mr. Barr. It is my understanding--and I know it is not your 
purpose here today, to disclose classified information; it is 
not my purpose, either. But if I were to tell you that recent 
classified briefings that we have received confirm, beyond any 
reasonable doubt in my mind, that the corruption that you have 
been discussing today and that we have heard other witnesses 
discuss, does indeed extend to the very highest levels of the 
Mexican Government. And that is borne out by extensive 
classified information from various Federal agencies. Would 
that comport with your views as well, based on your career, 
handling these matters, and the work that you have done on 
behalf of the U.S. Government?
    Mr. Gately. Yes, sir, it does.
    Mr. Barr. It is also my understanding that the work that 
you have done, specifically, not necessarily limited to, 
Operation Casablanca, involving the, as you say, ``the 
laundering of drug proceeds by the Colombian and Mexican 
cartels,'' that there is independently verifiable information 
that bears that out. And I state that for the record today, 
with regard to the Colombian angle, as well as the Mexican. I 
presume that would not surprise you, either?
    Mr. Gately. Not in the least, sir.
    Mr. Barr. The tape that you mentioned, in response to the 
chairman's question, about whether or not there is any evidence 
on tape directly linking high-Mexican Government officials to 
the operation and to the laundering; could you provide us any 
more details on that here today, since we don't have the tape?
    Mr. Gately. I can tell you that there is direct discussion 
about the ownership of the money. And it came about, not as a 
braggart's statement. It was in the conversations during the 
second or third state of negotiation.
    There was one occasion where one of the bankers, based on 
his communications with his client, whom he later identified as 
the Secretary of Defense, brought it up because he was 
describing one of the locations in New York City which 
contained a half billion dollars in cash. And during the course 
of that conversation, he described visiting that location, 
stating that it had----
    Mr. Barr. Is that an American bank?
    Mr. Gately. No, it is not a bank, sir. It was a home. It 
was a private residence that he was describing--saying that he 
had been there and removed as much as $10 million from the 
location.
    Mr. Barr. So this----
    Mr. Gately. That is how the conversation came up.
    Mr. Barr. The conversation was not just sort of a general 
conversation about high-government officials being involved? It 
was very specific, very creditable, very particular?
    Mr. Gately. Like all their conversations with us, there was 
never any indication that what they told us was misleading, 
false, or even exaggerated. They were there to do business with 
us.
    Mr. Barr. Is that based, not only on your experience, 
specifically with regard to Operation Casablanca, but also on 
the entire 21 years of your very distinguished career, as an 
U.S. Marine, and as an law enforcement officer for this 
Government?
    Mr. Gately. It is more like 31 years, but, yes, sir, that 
is exactly right.
    Mr. Barr. Thank you. And I am sorry that time doesn't 
permit additional questions, but I thank you very much, and Mr. 
Weitzman very much, for your courage in being here today and 
for helping out in this effort.
    Mr. Mica. We do have additional questions. We have a vote 
going on now; that will take approximately 15-20 minutes. Why 
don't we recess until about 10 minutes of. If you gentlemen 
wouldn't mind, give us time to go over and vote and come back. 
You might be able to get some refreshments.
    We will stand in recess until 10 minutes of the hour.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order, if I may. And we will continue questioning. I had some 
additional questions, both to Mr. Weitzman and to Mr. Gately.
    Mr. Gately, if I could continue, sir, to ask you a couple 
of questions. From your testimony, I think you are telling the 
subcommittee that you don't believe there was a specific 
coverup by Customs or other personnel in any of these 
investigations; is that correct? This was not an overt----
    Mr. Gately. No, sir; it was not a coverup. It was exactly 
what I say in my statement--an accumulation of problems, people 
who did not want the investigation to begin, people who always, 
from the beginning, once it started, wanted to know when it was 
going to end. Many people will tell you today that they knew 
about Operation Casablanca, or they can attempt to brief you on 
it. I suggest to you now that is not true. There are just a 
couple of people who know the full breadth of that 
investigation or those three investigations which made the 
operation. One of those people is me. The other is the 
confidential informant. If you want to put all that information 
into one person, it is either that person or myself. Anyone who 
tells you that they know the whole thing, or they were part of 
the planning of that operation, they are just not being genuine 
with you.
    Mr. Mica. And so we have two principals--you and the 
primary informant. How did you determine the credibility of the 
informant and the credibility of the accusations that are made? 
Because you are not making the accusations on the tape about 
how high up this money was linked to, it is someone else. How 
can you say, or how can you believe that that was a credible 
and knowledgeable source?
    Mr. Gately. The credibility of the informant is not in 
question, sir. First of all, he is not a criminal who was 
turned to work for the Government. He volunteered his services 
at our request or bidding. We put him in the position of 
meeting with and developing these investigations because he 
knew the individuals or some of the individuals involved in the 
Cali operation because of his legitimate business connections. 
Based on that and his ability to communicate with any sort of 
individuals and to follow directions better than any individual 
I have ever encountered, who had to act in the capacity that he 
did, he did a marvelous job. He was scripted when he met these 
people. He was briefed and debriefed, over and over again. No 
meeting took place without the informant meeting with myself 
and other agents involved in the investigation to determine 
what should be brought out in the next meeting with whatever 
banker was there. None of this was ad hoc or ad libbed. It was 
all prepared questioning that didn't appear to be that when he 
made the meetings.
    There were several times that we intended to draw out more 
information about the ownership of the money or the ability to 
make this transaction come about in the short period of time we 
had before the closeout date had been----
    Mr. Mica. You keep saying ``we.'' Was there someone else?
    Mr. Gately. Other than myself?
    Mr. Mica. Yes.
    Mr. Gately. The agents that were conducting the operation, 
sir.
    Mr. Mica. So they can verify----
    Mr. Gately. As I say in my statement, it all can be 
verified.
    Mr. Mica. So we have other agents who can verify--would 
they also be visible in the tapes?
    Mr. Gately. They are.
    Mr. Mica. They are. And are they identified in the 
transcripts?
    Mr. Gately. Yes, sir, they are.
    Mr. Mica. OK. And you said there was other evidence. What 
type of other evidence, other than individuals? You have 
referred to money, too, in large quantities. Of course, the 
$1.15 billion total and half a billion in cash in a----
    Mr. Gately. Do you want me to sum up what the $1.15 billion 
represents, sir? I can do that for you.
    Mr. Mica. If you could. And then, what I would like to try 
to find out, too, is what other evidence exists or that we 
could look to that might substantiate the allegations that have 
been made, or verify some of the claims that have been made.
    Mr. Gately. If I could get to the first part, the $1.15 
billion represented $500 million in New York; $500 million----
    Mr. Mica. You said, ``kept in cash in a house.''
    Mr. Gately. That is correct, according----
    Mr. Mica. Was that----
    Mr. Gately [continuing]. According to the banker that gave 
us the information, that is correct.
    Another $500 million in cash kept somewhere in the 
Netherlands, then $150 million in cash in Mexico City.
    That is how it was described to us, and that is how we came 
up with $1.15 billion.
    Mr. Mica. Did you ever get to verify the existence of any 
of those funds?
    Mr. Gately. Absolutely not, sir.
    Mr. Mica. You didn't? You were never able to take it to 
that level?
    Mr. Gately. No, sir.
    Mr. Mica. But the individuals who were involved--now I 
don't want to get into revealing anything at Casablanca that 
may be under prosecution or coming up for trial--but are we 
talking about the same kinds or same sources of money?
    Mr. Gately. Yes, sir.
    Mr. Mica. We are?
    Mr. Gately. Yes, we are.
    Mr. Mica. Is there any other hard evidence, other than the 
statements of these individuals, the tapes that would show 
others involved with you when you--again, you said, ``we''--the 
statements of money? What other information or----
    Mr. Gately. I can only address the credibility of the 
information we received. And based on our past experiences, and 
during the duration of the investigation, the entire operation, 
these people had not misled us; they had not lied to us; and 
they had not exaggerated anything to us. So, all we could do 
was go forward with an investigation in an undercover capacity 
until the end of the operation, the end of the covert phase of 
the operation.
    What is very unfortunate is that there was no action taken 
subsequent to the closeout of the undercover operation. No one 
did anything else to determine whether or not what was said in 
that meeting could now be investigated in an overt way.
    Mr. Mica. You made specific requests to take it to the next 
step?
    Mr. Gately. I did.
    Mr. Mica. To whom?
    Mr. Gately. I made those requests as----
    Mr. Mica. How high did you----
    Mr. Gately. In my new role, TDY in headquarters, I brought 
it to the attention of the Director of the Financial 
Investigations Division, who brought it to----
    Mr. Mica. Who was that?
    Mr. Gately. Allen Duty.
    Mr. Mica. I am sorry. Allen----
    Mr. Gately. Duty.
    Mr. Mica. Duty.
    Mr. Gately. I brought it to the attention of the Assistant 
Commissioner for Investigations.
    Mr. Mica. And who was that?
    Mr. Gately. Bonnie Tischler.
    And I brought it----
    Mr. Mica. Was this oral or written?
    Mr. Gately. Oral, sir.
    Mr. Mica. OK. And who else?
    Mr. Gately. And to the Director of Operations, Connie 
Finchel.
    Mr. Mica. And no response or no pursuit from any party?
    Mr. Gately. There was no pursuit by Los Angeles, or the Los 
Angeles office, which had the sole responsibility to pursue it.
    Mr. Mica. When did----
    Mr. Gately. I think, if I could----
    Mr. Mica. Go ahead.
    Mr. Gately [continuing]. Just expand on that, just for a 
second. I think you have to understand the environment and the 
nature of the relationship between myself and Mr. Hensley 
during about 14 months of this investigation. I was constantly 
under scrutiny that I had not experienced at any time in my 
career. I was being audited, sometimes on a daily basis. I was 
being accused of losing enormous amounts of money, or 
misappropriating it, or even stealing it. This does not foster 
a good relationship between myself and the person I have to 
brief on the progress of an investigation every day. And 
nothing was going to happen, based on what I said, sir, whether 
I was in charge or TDY and completely disassociated from the 
investigation.
    Mr. Mica. Mr. Hensley seems to indicate he thought you were 
under investigation for some unaccounted funds before he came 
on the job.
    Mr. Gately. Mr. Hensley is probably the most disingenuous 
person I have known in my entire life. If he says anything, I 
hold it suspect, sir. I have never known a liar quite like him.
    Mr. Mica. Well, I think that is at who is telling the 
truth----
    Mr. Gately. That has always been the question.
    Mr. Mica. And under oath here, before the subcommittee, you 
have not misappropriated any funds in your charge.
    Mr. Gately. I have not, nor have I stolen any funds in my 
charge.
    Mr. Mica. When did you retire?
    Mr. Gately. December 31, sir.
    Mr. Mica. Did you follow Operation Casablanca during the 
period in which the Mexican Government threatened to go after 
our agents?
    Mr. Gately. Absolutely, sir.
    Mr. Mica. Was that--in your estimation, was that an example 
of full cooperation?
    Mr. Gately. I think it is a clear----
    Mr. Mica. Cooperating fully?
    Mr. Gately [continuing]. A clear and convincing example of 
how they don't cooperate. I think it is also a very showing 
indication of how much we hurt their operations by exposing 
their banks as money launders.
    Mr. Mica. When this operation was first reported, I think 
the reports actually came out that the operation was conducted 
with the knowledge of Mexican officials. And I think we had a 
briefing by Customs that told us that Mexican officials had 
been briefed in advance, the ones they felt they could trust 
about the operation. Do you know if that was the case?
    Mr. Gately. I conducted the briefing myself, sir.
    Mr. Mica. To the Mexican officials?
    Mr. Gately. To Ambassador Jones, and to the then-Deputy 
Attorney General of Mexico, and the Assistant Secretary of 
Hacienda for Enforcement.
    Mr. Mica. And you conducted that prior to----
    Mr. Gately. Initiating any aspect of the operation.
    Mr. Mica. So the Mexicans were fully appraised at a high 
enough level? What was the identity, a Deputy Attorney General?
    Mr. Gately. That is a very good question. I don't have his 
name here with me, but it is well-documented----
    Mr. Mica. OK.
    Mr. Gately [continuing]. That it occurred.
    Mr. Mica. Well, that was my understanding, too. Then, the 
Mexicans suddenly took a turn and came after us and threatened 
to arrest or indict our agents; is that correct?
    Mr. Gately. That is my understanding. And I also understand 
that that has persisted off and on up until a few weeks ago.
    Mr. Mica. Until just prior to the question of 
decertification, it remained in limbo, as I understand it.
    Mr. Gately. Yes, sir. That is how I understand it.
    Mr. Mica. What turned on the spigot to come after us, with 
our agents--including you--having briefed the Mexicans on what 
we were doing? Was it the knowledge of how far this had reached 
in the banking circles? Or do you think it was concern about 
how high up it might go if all of these sources of money were 
revealed?
    Mr. Gately. I think, referring to the financial 
institutions in Mexico in their entirety as corrupt and money 
launders was enough to rankle all of the Mexican officials 
related to, not only the regulation of those banks, but any 
lobby that the banks had with their Congress. And that would 
also, I think, apply to any lobby they had within the executive 
branch because, as I understand it, the Minister of Foreign 
Affairs, as well as the President, spoke out--the President of 
Mexico spoke out against Operation Casablanca.
    Mr. Mica. As an infringement upon their sovereignty? Was 
that the excuse or----
    Mr. Gately. That is the excuse I heard, sir.
    Mr. Mica. There have been reports that vast amounts of 
money from drug profits are filtered through the executive 
branch of the Mexican Government, through the military, and 
through the police. Is that your understanding, and at what 
levels? Again, is this sort of spotty, or how would you 
describe, again, the executive branch penetration of illegal 
profits?
    Mr. Gately. I can speak to my knowledge of the past 
administration, that it obviously permeated every level, 
including the Office of the President.
    Mr. Mica. The military--same thing?
    Mr. Gately. That is correct.
    Mr. Mica. And, of course, the police I guess is a given.
    Is there any other evidence this subcommittee could seek 
that would verify what you are saying and document how high the 
penetration of corrupt money is filtering? Any suggestions you 
can have as to what rock we might--we have a problem, because 
we have learned things behind closed doors, we are not free to 
talk about.
    Mr. Gately. As----
    Mr. Mica. But if you can give us suggestions as to what 
rock we can uncover, publicly, we may be able to go a little 
bit further with----
    Mr. Gately. I couldn't talk about--like yourself, sir--I 
couldn't talk about it, publicly. I could tell you where to 
look, but I couldn't tell you publicly, nor do I think that the 
Customs Service would allow me to tell you in any capacity.
    Mr. Mica. We may call you back in a private session.
    We have already had a closed-door session with the CIA, the 
DEA, intelligence, and others, and we may have to go further in 
that regard, then.
    I would like to yield to Mr. Cummings at this time.
    Mr. Cummings. Mr. Gately, thank you very much for being 
here. I think that it does take quite a bit of courage for you 
to be here. You have said a lot, and I do believe you to be an 
honorable man. And I believe very strongly in our Customs 
Agents. It is a very reputable organization, and I think that 
anybody sitting in this audience would have to be concerned--
and I think if someone made the kind of statements--and I have 
no reason to disbelieve you--that you made about you, and you 
did not have opportunity to defend yourself, I think you would 
be very upset. Would you--you would be concerned.
    Mr. Gately. Well, sir, this is my first opportunity to tell 
anyone----
    Mr. Cummings. OK.
    Mr. Gately [continuing]. That cares to listen, what 
happened.
    Mr. Cummings. Well, I have listened intently, and I guess I 
just want to make sure that--we don't have Mr. Hensley here. We 
don't have the head of Customs here.
    Mr. Gately. Yes.
    Mr. Cummings. And that is not your fault.
    Mr. Gately. No, sir.
    Mr. Cummings. And so--but we do have some letters.
    Mr. Gately. Yes, I understand.
    Mr. Cummings. And, you know, we have got--I don't know who 
this is--television cameras, and you have got people writing, 
and we are getting one side of the story--we have a letter from 
Mr. Hensley, dated March 22, 1999, which I have asked to be--
suggest to Mr. Mica be submitted to be part of the record.
    Mr. Mica. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]62622.031
    
    [GRAPHIC] [TIFF OMITTED]62622.032
    
    Mr. Cummings. Thank you.
    I would just like to just, first of all, start with the 
last paragraph of his letter and work backward. It says Mr. 
Gately--and this letter is dated, I think I already said, March 
22, 1999. ``Mr. Gately has stated to numerous people that he is 
writing a book and a screenplay on Operation Casablanca. I find 
it sad that Mr. Gately has to malign so many people with 
misstatements and factual errors to enhance his own 
marketability and detract from what is a great operation and 
investigation of international money laundering. I hope that 
this sets the record straight.''
    With that, let me just ask you a few questions.
    Mr. Gately. Yes, sir.
    Mr. Cummings. You said that you put your concerns to 
several people who were above you. Is that correct?
    Mr. Gately. Throughout the entire operation; yes, sir.
    Mr. Cummings. All right. But you named a few, a few moments 
ago; did you not?
    Mr. Gately. Yes, I did.
    Mr. Cummings. And would you give us those names again?
    Mr. Gately. The Director of Financial Investigations, who 
is now the Special Agent in Charge in Boston, Allen Duty; the 
Director of Operations, Connie Finchel; and the Assistant 
Commissioner for Investigations, Bonnie Tischler.
    Mr. Cummings. I take it that there came a time when they 
decided to end this operation. Is that correct?
    Mr. Gately. There were two scheduled--or more than two 
scheduled take downs of this operation; that is correct, sir.
    Mr. Cummings. All right. And you objected to both of those?
    Mr. Gately. I was not alone in my objection. I will add to 
that.
    Mr. Cummings. All right. But you did object to both?
    Mr. Gately. Yes, I did.
    Mr. Cummings. I am just trying to get a balance here. I 
mean you made some strong allegations, and I just want to make 
sure I understand both sides of the story.
    Mr. Gately. I am here and open----
    Mr. Cummings. Because you are saying one thing and Mr. 
Hensley is saying another thing, and consistent with Mr. 
Hensley, is Raymond Kelly, the Commissioner of Customs. And I 
go back to what I said from the beginning.
    Mr. Gately. Yes.
    Mr. Cummings. These people are sworn to enforce the law, 
too. And they, of course, are out there beating the bushes 
trying to make sure that we rid our country of drugs and doing, 
I hope, what they are supposed to do. And so I am just trying 
to get some balance here.
    Mr. Gately. Sir, are you suggesting I wasn't?
    Mr. Cummings. Oh, no, no.
    Mr. Gately. Oh, OK.
    Mr. Cummings. As a matter of fact, what I am saying to you 
is you have given your side, but what we also have to look at, 
is the fact that we have got these two gentlemen who are, for 
all we know, honorable people, just as we assume you are an 
honorable man. And we don't have them here.
    And right now, we got the press writing things, and they 
are getting one side of it, and we have got letters that say 
just the opposite to what you are saying.
    Mr. Gately. Of course.
    Mr. Cummings. All right. Now, I am just wondering, when you 
said there were two scheduled times when the operation was 
supposed to end. Is that right?
    Mr. Gately. That is correct, sir.
    Mr. Cummings. Did a meeting take place? Let's say the first 
time, did a meeting take place with regard to the ending of it?
    Mr. Gately. Several times.
    Mr. Cummings. All right.
    Mr. Gately. Several meetings in regard to the end of it.
    Mr. Cummings. And who would normally be in those meetings?
    Mr. Gately. Local and Los Angeles--the senior officials, 
Mr. Hensley, his associate, Zack, or Deputy Steve Woody, 
myself. Sometimes the group supervisor within the operation; 
occasionally, the case agent; sometimes one or more of the 
prosecutors who were part of the operation.
    Mr. Cummings. And would these meetings go on a consensus, 
or was it basically one person's decision no matter what 
anybody said, or was it a vote, or what?
    Mr. Gately. There was no voting, sir. It was typically a 
consensus of opinion, whether we could end it, or we needed 
more time to develop the case, or the prosecutors needed more 
time to develop the documents, or the information they had to 
develop the documents so that they could file those documents 
with the court, so when the case ended, we could do things 
necessary to the take-down, such as make arrests or search 
warrants, seizure warrants, et cetera.
    Mr. Cummings. So, when you had the meetings around the 
first scheduled ending----
    Mr. Gately. Yes, sir.
    Mr. Cummings [continuing]. You were in disagreement that it 
should end. You didn't feel that it should end; is that right?
    Mr. Gately. I--yes; I thought we should go on.
    Mr. Cummings. And did you go on?
    Mr. Gately. We did, but not for that reason.
    Mr. Cummings. Well, why did you go on?
    Mr. Gately. Because the prosecution said they weren't 
ready, so we went on because they weren't ready.
    Mr. Cummings. OK. Was there any difference of opinion 
coming from Hensley at that time?
    Mr. Gately. Absolutely.
    Mr. Cummings. I am sorry?
    Mr. Gately. Yes, sir, there was.
    Mr. Cummings. And what was that?
    Mr. Gately. He wanted to have a 30-day period of darkness.
    Mr. Cummings. And what does that mean?
    Mr. Gately. I bet you want to know what that means.
    Mr. Cummings. Suspended, suspend?
    Mr. Gately. Suspend all operations for 30 days to allow the 
prosecution to catch up.
    Mr. Cummings. OK. But what happened?
    Mr. Gately. We continued on, sir, because to suspend 
operations for even a few days would damage our creditability 
with our partner criminals. That would be the fallout from not 
communicating with them or conducting business with them.
    Mr. Cummings. So you proceeded on?
    Mr. Gately. Yes, sir.
    Mr. Cummings. Were there others, other than Mr. Hensley, 
that had a difference of opinion about you?
    Mr. Gately. With me?
    Mr. Cummings. With you; yes.
    Mr. Gately. Steve Woody and his associate, Zack. One of the 
three prosecutors, Dwayne Lyons, disagreed with me. Yes, sir.
    Mr. Cummings. So one of the prosecutors disagreed with you?
    Mr. Gately. Two agreed, but one disagreed.
    Mr. Cummings. All right. Now, why don't we move to the 
second. So the process continued, the operation continued.
    Mr. Gately. That is correct.
    Mr. Cummings. Now let's move on to the second----
    Mr. Gately. Take-down date.
    Mr. Cummings. Yes.
    Mr. Gately. OK.
    Mr. Cummings. Was there another meeting, or meetings?
    Mr. Gately. There was meetings.
    Mr. Cummings. Same people?
    Mr. Gately. Same people; same situation. Exactly the same 
situation. Now infuse the new information about the $1.15 
billion.
    Mr. Cummings. All right. Now you know, Mr. Gately, 
Commissioner Kelly stated in his letter----
    Mr. Gately. Yes.
    Mr. Cummings [continuing]. Which I understand is a part of 
the record, is that ``while assertions of money laundering by 
high-ranking Mexican Government officials surfaced, at no time 
was there any evidence developed that could substantiate these 
allegations.''
    I take it you disagree with that?
    Mr. Gately. No, I agree with it wholeheartedly.
    Mr. Cummings. Now let me ask you this, going back to Mr. 
Hensley's letter, he said some very interesting things, too. 
And I just have a few more questions, Mr. Chairman.
    On the second page, it says, ``Mr. Gately, also alleges 
that I accused him of stealing millions in dollars and 
traveling without authorization. I never accused Mr. Gately of 
stealing money. Following the takedown of the case, allegations 
were brought to my attention by Customs Special Agents that Mr. 
Gately asked them to, quote `unseize,' end of quote, millions 
of dollars in foreign bank accounts belonging to the 
informants, an issue that seemed highly unusual and not 
reported previously in any report or to Mr. Gately's 
supervisors. This information was reported, as required, to 
Customs Office of Internal Affairs, for whatever action was 
deemed necessary.''
    Mr. Gately. My comments, sir?
    Mr. Cummings. Yes.
    Mr. Gately. Prevarication.
    Mr. Cummings. All right.
    Mr. Gately. A twisting of the truth, something that Mr. 
Hensley is so accomplished at. He should take up a cottage 
industry in that. This man can twist anything. If you care to 
hear the truth, I will explain exactly what I did.
    Mr. Cummings. All right.
    Mr. Gately. I am under oath; Mr. Hensley is not.
    Mr. Cummings. Well he is not in here, so----
    Mr. Gately. Well, I suggest that the next time he provides 
you with any information, place him under oath; see if he 
doesn't dance.
    Mr. Cummings. All right. I hope we will get a chance to do 
that.
    Mr. Gately. Well, that is very unfortunate.
    Mr. Cummings. I am just asking you some questions. I am 
just trying to see what the whole story this.
    Mr. Gately. Well, I am about to tell you.
    Mr. Cummings. As they say, I just want to hear the rest of 
the story. He goes on to say, ``Mr. Gately makes reference to 
my getting a Presidential level, SES award. However, he fails 
to mention that I was nominated for the award in July 1997, 
nearly a year before the takedown of Casablanca. The award was 
for sustained managerial excellence, with only one reference to 
Casablanca, but not by name. Numerous other managerial 
successes were outlined in the award nomination spanning 
several years of my career.''
    Mr. Gately. What is the question, sir?
    Mr. Cummings. Do you think he lied his way through his 
career?
    Mr. Gately. Absolutely. Absolutely.
    Mr. Cummings. I'm sorry?
    Mr. Gately. Absolutely, without question. If you want me to 
bring witnesses to that effect, I can arrange it.
    Mr. Cummings. I am just reading his letter. [Laughter.]
    Just one other thing, on page 1, he says, ``Mr. Gately 
alleges that the name of Mexico's Defense Minister, Mr. 
Cervantes, came up in conversations with other Mexican 
defendants in relation to the movement of moneys in the $1 
billion to $1\1/2\ billion range. This is not factual. Mr. 
Cervantes' name was never referred to, but rather a Mexican 
general later described as the Defense Minister. Both 
defendants acknowledged that they had never met the Defense 
Minister. Numerous attempts by the undercover agents to push 
for a meeting with this alleged General Minister were 
unsuccessful.''
    That is a lie, too.
    Mr. Gately. A lot of it is a big, fat lie; that is right. 
That is absolutely correct, sir.
    Mr. Cummings. OK. OK. You just said something.
    Mr. Gately. Do you want me to pick it apart for you? I 
will.
    Mr. Cummings. No, no. You said a lot of it is a big, fat 
lie. Can you tell me which part isn't?
    Mr. Gately. The fact that he says that I said that Mr. 
Cervantes' name was mentioned is a big, fat lie.
    Mr. Cummings. All right.
    Mr. Gately. I never said that. There is no reference to 
that anywhere.
    Mr. Cummings. He said one thing that I didn't ask you 
about. Are you going to write a book?
    Mr. Gately. Which part is that?
    Mr. Cummings. Are you going to write a book?
    Mr. Gately. Am I going to write a book, sir?
    Mr. Cummings. Yes.
    Mr. Gately. I have no contract to write a book. I have made 
no attempt to get an agent, to find a publisher, or do anything 
of that sort. But if I do write a book, sir, it would be the 
absolute unabridged truth.
    Mr. Cummings. I just have one more question. You allege 
that Customs Service prematurely shut down this operation to 
protect the General; is that right?
    Mr. Gately. I did not.
    Mr. Cummings. You didn't?
    Mr. Gately. I did not.
    Mr. Cummings. Why do you think they prematurely shut it 
down?
    Mr. Gately. I give you five specific reasons in my 
statement why they prematurely shut it down.
    Mr. Cummings. You don't think it had anything to do with 
the General?
    Mr. Gately. It didn't necessarily have to do with the 
General. It did have to do with what I believed to be the 
infusion of politics into the process of investigating 
criminals who were laundering money. That is what I said, and 
that is what I have always said.
    Mr. Cummings. Do you allege that the General was a part of 
that?
    Mr. Gately. I don't know, sir. I couldn't investigate it. I 
was not allowed to. It was over. I was removed from my 
position, so I couldn't take it on as a project, a post-covert 
operation.
    Mr. Cummings. When Commissioner Kelly says that he was 
worried that his personnel; lives might be compromised, and 
that is one of the main reasons why the operation was shut 
down; did he ever say that to you?
    Mr. Gately. He did not.
    Mr. Cummings. Do you believe that?
    Mr. Gately. Do I believe----
    Mr. Cummings [continuing]. That his concern that----
    Mr. Gately. Yes, I believe that he is always concerned for 
his agents, as was I, because I was their supervisor. I was the 
one seen with them. I was there with them everyday. If I 
thought for 1 minute, 1 second, even a fragment of a second, 
that there was danger to them, I would not allow them to 
proceed. Any undue danger, I would never have allowed them to 
proceed at any phase of this undercover operation.
    Mr. Cummings. So let me make sure I understand this. If he 
said that he was concerned, and you said you believe him when--
you believe he has a history of being concerned about his 
people.
    Mr. Gately. Yes, I do.
    Mr. Cummings. And if he says that this is one of the main 
reasons why he shut down the operation, you have no reason to 
disbelieve that; do you?
    Mr. Gately. Absolutely not.
    Mr. Cummings. All right.
    Thank you.
    Mr. Gately. Thank you, sir.
    Mr. Mica. Mr. Barr, from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Gately.
    Mr. Gately. Yes, sir.
    Mr. Barr. We have talked a lot about Mr. Cervantes. What is 
his relationship with the Government and, in particular, the 
President of Mexico?
    Mr. Gately. He is a member of Mr. Zedillo's cabinet, he is 
the Defense Minister, or the Secretary of Defense.
    Mr. Barr. Would that presume that he is somewhat close to 
the President?
    Mr. Gately. I would presume that, yes----
    Mr. Barr. OK.
    Mr. Barr [continuing]. As in all cases in governments that 
have a structure of that nature.
    Mr. Barr. And as I understand your testimony today, you are 
not testifying that you have firsthand knowledge that he has 
been involved in this money laundering, simply that there are 
indications of that, and that there are indications, very clear 
indications, through your investigation and through the 
evidence that you all turned up as a result of that 
investigation, that there is involvement at the highest-levels 
of the Mexican Government in the money laundering. Is that sort 
of a fair characterization of your testimony?
    Mr. Gately. Yes, sir, it is.
    Mr. Barr. And is it also your testimony today that, in your 
professional judgment, this operation was prematurely shut 
down?
    Mr. Gately. In my professional judgment, yes, sir.
    Mr. Barr. And at least in part because of what appear to be 
political reasons not directly related to the operation, 
itself?
    Mr. Gately. Reasons that I say were infused into the 
operation before it became operational, and talked about 
throughout the operation.
    Mr. Barr. Thank you very much.
    Mr. Gately. Thank you, sir.
    Mr. Mica. Mr. Weitzman, you have a little bit different 
perspective. You----
    Mr. Weitzman. I was enjoying listening to the other half. 
[Laughter.]
    It is far easier.
    Mr. Mica. Well, I think you served on the Mexican border 
some years ago, and are now an agent in Orlando?
    Mr. Weitzman. I work in narcotics in Orlando; yes, sir.
    Mr. Mica. Yes. And could you tell the panel what you see as 
far as trafficking at your level and the source of the drugs?
    Mr. Weitzman. The best picture I could draw for you is the 
one I went through, the one depicted on ``60 Minutes,'' where I 
stopped a propane gas truck that we later found out to be 
holding 4.3 tons of cocaine. And my supervisor that day--and I 
don't need to mention names--called me in behind closed doors 
and handed me the referral slip and asked me to sign it to the 
streets of the country, and I refused. And following that 
incident, life hasn't been real pleasant, let's put it that 
way.
    Mr. Mica. So, because you have come forward, you feel you 
have been--I don't know if I want to say ``harassed,'' but 
maybe that is the only term. Do you feel some sense of 
harassment?
    Mr. Weitzman. I think when you get phone calls at your home 
making comments like calling you a ``f''-ing kike and take your 
``f''-ing kike baby with you, or when you have supervisors come 
out to the field to confront your spouse and tell your spouse 
how they masturbate the narcotics dog, in an attempt to get you 
to take a swing at one of them or try to undermine your 
creditability, yes, I would pretty much call that harassment.
    I think when one of your supervisors admits to upper 
management that he is going to be hassling information out of a 
grand jury witness, that pretty much covers it.
    Mr. Mica. Well, I was going to ask you----
    Mr. Weitzman. And to go further----
    Mr. Mica [continuing]. For examples--[laughter]--but I 
don't have to. [Laughter.]
    You had a very brief opening statement--[laughter]--and a 
brief questioning period.
    Well, I think we would like to pursue some of the matters 
that have been discussed here today. We are going to do that in 
two ways.
    First of all, Mr. Gilman and I have introduced a 
resolution, and others will be joining us which will extend the 
period for review of decertification for another 30 days. In 
that time, we hope to see how far this particular trail leads 
us concerning the problem of corruption in Mexico and the 
question of ``full cooperation.''
    We will be taking some additional steps tomorrow to ensure 
this matter is raised to an even higher level, based on, not 
only the testimony that we had from witnesses today, but 
information that Mr. Barr has referred to that we have received 
in closed briefings.
    He may also, with the cooperation of friends on the other 
side of the aisle, seek to find some additional information, 
either voluntarily or with subpoenas to see, again, how far 
this trail leads.
    But I appreciate both of our witnesses coming forward today 
and providing our subcommittee with testimony.
    There being no further business, Mr. Barr.
    Mr. Barr. Can I just ask one followup question?
    Mr. Mica. Yes.
    Mr. Barr. Mr. Weitzman, is the treatment that you have 
received basically for refusing to sign a piece of paper 
allowing a huge amount of cocaine voluntarily into this 
country? Is that the only such incident that you are aware of?
    Mr. Weitzman. Listening to my colleague to my left is like 
reliving a horror story because I went through what he went 
through a few years earlier with the sniping, the comments that 
are made to you, just like I told all of you earlier. It brings 
up so many sore and really angry feelings inside me because it 
took me 9 years to get to this point where I had an opportunity 
to come before all of you and tell you that these things really 
do happen, that people really do get hurt out there, that 
people like Mr. Gately and myself do suffer reprisals, because 
you are just doing your job.
    The job is to interdict narcotics, and it just so happened 
that a load of narcotics that I interdicted could be directly 
linked to 21 tons found in a warehouse in Sylmar, and that is 
not a game anymore. Now it is the real deal. And that 21 tons 
is part of a 250-ton shipment that crossed the border in the 
late-1980's, all of which are tied to the same cartel that my 
friend is telling you about now.
    Mr. Barr. The Mexican cartel?
    Mr. Weitzman. The Juarez cartel.
    Mr. Barr. Thank you very much.
    Mr. Weitzman. My pleasure, sir.
    Mr. Barr. I very much appreciate your courage and Mr. 
Gately's courage in being here today.
    Mr. Weitzman. Let's hope I have a job when I get home.
    Mr. Mica. Thank you, Mr. Barr.
    Mr. Barr. Let us know if you don't.
    Mr. Mica. Mr. Cummings.
    Mr. Cummings. Yes, I hope you have a job when you get home, 
too. I really do.
    Mr. Weitzman. Thank you.
    Mr. Cummings. I think all of us have a common goal and that 
is to make sure that drugs don't enter our country and to do 
everything in our power to get them out, and make sure those 
who are responsible for trying to bring them in, or are 
bringing them in, are dealt with properly.
    Both of you have raised some very strong allegations, and 
it concerns me. I mean the examples that you just gave, Mr. 
Weitzman, about your wife, talking about----
    Mr. Weitzman. Well, actually, what--just so you 
understand--while we were being transferred from Nogales, AZ, 
over to Miami, FL, we had received a call at our home. And I 
picked up the call, and it said, ``You better move, you `f'-ing 
kike and take your `f'-ing kike baby with you.'' I reported it 
to Internal Affairs, and it is the typical Customs mentality 
of, ``How do you know it came from within Customs?''
    Well, you know, it is simple--and maybe it isn't fair to 
say that--but how did anybody know I was moving and being 
transferred? And how did somebody get my unlisted number? Why 
were people--why was the supervisor going out discussing 
blatant acts of bestiality to my wife? I mean, this is just 
unimaginable that these things go on.
    Why was my report regarding the tanker, the truth of what I 
have just told you now and a lot of what we discussed--the 
counsels and I have discussed in private--why was it deleted, 
with everything my supervisor did taken out of it and rewritten 
and submitted as fact?
    This is the story; this is what has gone on, and it has 
gone on too long, and it is time for it to come to an end.
    Mr. Cummings. What is your biggest fear? I mean right now 
you just said a moment ago, you hope you still have a job, but 
I mean----
    Mr. Weitzman. Honestly?
    Mr. Cummings. Yes, sir.
    Mr. Weitzman. I feel far more comfortable now that we have 
a guy like Ray Kelly in there because he does seem to genuinely 
care about his people, but I worry more about my colleagues on 
the operations on Customs that I am hearing these days with 
their retaliatory strikes, their ability to listen to Internal 
Affairs tapes that are so damning. Much of which I discussed on 
the tapes that I have just told all of you now, where I get 
letters back saying that, in no uncertain terms, I am full of 
crap. And I am not full of crap; it is not a game. It is real 
life, and it happened, and this is what they do to people. They 
don't just--it starts out with the small little shots at your 
integrity, and then it's like a seek and destroy mission to 
completely undermine ones credibility, and I am not going to 
have it done.
    Mr. Cummings. Well, I don't find myself agreeing with Mr. 
Barr too often--[laughter]--friendly disagreements, that is. 
But I agree with him on the point that, you know, if you have 
those kind of problems, you need to let us know, because we are 
very concerned about that. And the fact that if you can come 
and provide testimony, you under oath, and if there is some 
type of retaliatory actions as a result of you coming here, 
that flies in the face of everything we stand for--everything.
    Mr. Weitzman. If I could interject for 1 second. Mr. Mica 
and I had a discussion the other night, and they were concerned 
about me--they wanted me to go behind a screen, and I explained 
to him, I never ran from anybody in my whole life, and I am not 
about to hide behind a screen and tell some story that could 
be, ``Oh, he went behind a screen to do it.''
    No, the time is now to get the whole truth out. And there 
are a lot of things that we cannot sit here in this forum and 
discuss, because it is my belief that they are so deeply 
national security sensitive, that the--for choice of a better 
set of words--the storm it would cause wouldn't be pleasant. 
But I have talked about it with counsel on both sides. They 
know what I am talking about, and it is true, and it happened, 
and the documentation is there to prove it.
    And I will cut the same deal with all of you that I did 
with my supervisor that day in San Diego. If I am lying, I will 
put my badge on the desk and I will never come back again. You 
have my word on that.
    Mr. Cummings. Thank you.
    Mr. Mica. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Gately, we talked at some length, going back to the 
substance of what we were talking about earlier, with regard to 
the involvement of the Mexican Government and the Colombian 
cartel. But one thing we didn't touch on, and I don't want to 
go into a lot of detail here, but was there any evidence in 
Casablanca of any involvement of United States banks in the 
Mexican drug money case?
    Mr. Gately. As knowledgeable that they were moving drug 
money, sir?
    Mr. Barr. I am sorry?
    Mr. Gately. Every United States----
    Mr. Mica. Knowledgeably moving drugs.
    Mr. Barr. Yes.
    Mr. Gately. Is your question, were they knowledgeable?
    Mr. Barr. Well, I didn't use that term, but----
    Mr. Gately. U.S. banks were involved in every transaction. 
There was no evidence obtained during the investigation which 
could then induce to determine that they were knowledgeable 
that they were dealing with drug money.
    Mr. Barr. OK.
    Mr. Gately. But with every transaction, U.S. banks were 
involved.
    Mr. Barr. Yes, I mean the wire transfers and so forth, 
but----
    Mr. Gately. Every instrument issued in the case of the 
Mexican bank drafts were eventually paid at the account of the 
Mexican bank at the United States bank.
    Mr. Barr. Right. Thank you.
    Mr. Gately. Yes, sir. Thank you.
    Mr. Mica. There being no further business to come before 
this subcommittee, this meeting is adjourned. And I thank our 
witnesses again.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
